<html>
<title> - COLORADO WILDFIRES</title>
<body><pre>[Senate Hearing 112-593]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-593

                           COLORADO WILDFIRES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                                   TO

DISCUSS THE RECENT COLORADO WILDFIRES, FOCUSING ON LESSONS LEARNED THAT 
 CAN BE APPLIED TO FUTURE SUPPRESSION, RECOVERY AND MITIGATION EFFORTS

                               __________

                 COLORADO SPRINGS, CO, AUGUST 15, 2012








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-533 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Buickerood, Jimbo, Public Lands Coordinator, San Juan Citizens 
  Alliance, Durango, CO..........................................    14
Fishering, Nancy, Vice President, Colorado Timber Industry 
  Association, Montrose, CO......................................    20
Hubbard, James, Deputy Chief, State and Private Forestry, Forest 
  Service, Department of Agriculture.............................    26
Kaufmann, Merrill R., Emeritus Scientist, Forest Service Rocky 
  Mountain Research Station, and Contract Scientist, The Nature 
  Conservancy....................................................    10
King, Mike, Executive Director, Colorado Department of Natural 
  Resources, Denver, CO..........................................     4
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

                                APPENDIX

Additional Material Submitted for the Record.....................    53

 
                           COLORADO WILDFIRES

                              ----------                              


                       WEDNESDAY, AUGUST 15, 2012

                                       U.S. Senate,
                  Committee on Energy and Natural Resources
                                               Colorado Springs, CO
    The committee met, pursuant to notice, at 10:10 a.m. in 
Centennial Hall, Room 203, University of Colorado, Hon. Mark 
Udall presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. Thank you, Pam. Before I officially call the 
hearing to order, let me just acknowledge the leadership that 
the Chancellor has long provided for this community and for the 
State of Colorado. This is one of the 4 institutions that 
represent the University of Colorado, and I am so proud and 
honored to have been a partner with the great work that you do 
here in Colorado Springs.
    So thank you, Chancellor.
    Let me officially call this hearing to order. This is the 
Energy and Natural Resources Committee of the U.S. Senate. It 
is chaired by Senator Jeff Bingaman from New Mexico. The 
ranking member is Senator Lisa Murkowski from Alaska. Both are 
very effective and engaged senators who understand public lands 
issues. I want to thank, in particular, Senator Bingaman, for 
anointing me, if you will, today to chair this hearing.
    There will be a similar hearing in Santa Fe, New Mexico, I 
think, in just the next couple of days dealing with this same 
very important topic.
    I have a statement I'd like to provide for the record, and 
then we're going to turn to the real stars of this hearing, 
which is this great panel that we've assembled here today. They 
will provide testimony, and then we will engage in a 
conversation over the next couple of hours.
    Again, I want to welcome all of you. I would also second 
the Chancellor's comments that this is not a town meeting. 
There are, however, cards available that my staff have, 
Chancellor, on which you all can direct questions and comments. 
You can be assured your concerns will be considered as a part 
of the record as we move forward in this important quest to 
return our forests to health, prevent catastrophic wildfires 
like the ones we've seen in Colorado and, frankly, all over the 
country this year, and, I hope, also find ways in which we can 
turn the excessive biomass in certain forms that's the reason 
these fires have been so catastrophic to economic uses as well.
    So, again, good morning. It's, as I said, a particular 
privilege to chair this field hearing here in my home State of 
Colorado. I want to thank the witnesses that have joined us at 
the University of Colorado at Colorado Springs for their work 
and all the time, energy, and resources that went into making 
this hearing happen. There is a lot of work that goes on behind 
the scenes.
    As I mentioned, all the statements today will go into the 
congressional record because this is a Senate committee 
hearing. I'd also like to recognize that we are here in 
Colorado Springs, a city and community that experienced the 
Waldo Canyon fire which is the most destructive fire in 
Colorado history. I was here when the fire was still burning to 
meet firefighters and displaced residents, and I know how much 
this community has suffered.
    The fire took two lives, destroyed 350 homes, and displaced 
32,000 people. It also has affected the entire city as 
businesses temporarily closed and some tourists canceled 
longstanding plans to visit the area.
    As everyone here is aware, the Waldo Canyon fire was just 
one of many fires burning across Colorado in this historic 
wildfire year. Twice within 3 weeks, we broke the previous 
record for the most destructive wildfires in our State's 
history. While big destructive fires like High Park and Waldo 
Canyon dominated the national news, there were fires burning in 
almost every area of the State, including the 14,000-acre Pine 
Ridge fire in Mesa County, the 10,000-acre Weber fire in 
Montezuma County, and the 45,000-acre Last Chance fire in 
Washington County. That pretty well covers the State, 
incidentally.
    My heart goes out to everyone affected by these fires, and 
my thanks goes out to all the firefighters, first responders, 
law enforcement, and National Guard and military units who 
worked tirelessly to protect us. In fact, how about a round of 
applause for all those fantastic public service personnel.
    [Applause.]
    I have no question--because I have direct experience with 
this--that Coloradoans are driven, determined, and innovative. 
Today, in that spirit, I am focused on moving toward solutions 
we can implement to improve the health of Colorado's forests 
and reduce the threat of catastrophic wildfires.
    Today, we will have an informative discussion on the 
wildfire challenges the West faces, as well as finding lessons 
that we can apply to future suppression, recovery, and 
mitigation efforts. Our forests are the backdrop and backbone 
to many rural and urban communities. They provide a wide range 
of benefits, including clean drinking water for millions of 
people across the U.S., vital wildlife habitat, jobs in the 
forest products industry, and a variety of recreation 
opportunities.
    But it's also well understood that our forests, regardless 
of their stewards, face significant threats to their overall 
health. More people in fire prone landscapes, larger and more 
frequent wild land fires, long-term drought, the bark beetle 
outbreak, and unhealthy landscapes have created a perfect 
storm: wild land fires that continue to burn larger and require 
more resources to fight every year.
    Fire suppression now consumes nearly half of the U.S. 
Forest Service's annual budget. That's an astounding figure 
that should be an eye-opener to all of us. For a different 
outcome, we need a different approach, and we all do have a 
role to play. In this case, the best offense, in my opinion, is 
a good defense. The same principle applies to wildfires.
    Wildfires are a natural phenomenon, but we can reduce their 
effects so that we can avoid catastrophic wildfires that damage 
property and take lives. It is catastrophic wildfires in the 
wildland-urban interface, not wilderness or roadless areas, 
that cost tens of millions of dollars to put out and hundreds 
of millions of dollars to recover from. I hope to use today's 
hearing to discuss what this best defense looks like, including 
both fire suppression and pre-fire mitigation.
    Last week, as the Chancellor mentioned, I led an after-
action review with the top leaders of the U.S. Forest Service, 
the State Forest Service, and the military to discuss the total 
Federal response to the Waldo Canyon fire. We concluded that 
these Federal agencies largely worked well together. This was 
the first time a dual-status commander was activated. A dual-
status commander allows National Guard personnel to command 
active duty personnel. If there are any military personnel in 
the room, you know how revolutionary that concept is, but how 
useful it is as well.
    All participants agreed at this after-action review that 
having a single point of contact on the ground helped to 
streamline communication and to speed the delivery of DOD 
assets. Another of my takeaways from the review last week is 
I'm going to take a close look at the Economy Act of 1932--what 
is that, 80 years ago--to explore whether it should be modified 
for those extreme situations in which human health and safety 
are at imminent risk. I would welcome any and all input as I 
explore these policy issues. We are truly all in this together.
    Let me pose a couple of questions. As to pre-fire 
mitigation, where should we prioritize limited resources? What 
can we do to better partner with and support forest-related 
businesses? What can home owners and property owners do to 
protect themselves?
    There are great examples out there where communities, 
businesses, and agencies are coming together to make positive 
things happen. Let me give you a couple of examples.
    Several home builders in the metro Denver area are using 
local beetle kill wood to frame new homes. The Coalition for 
the Upper South Platte, just up the road outside of Woodland 
Park, is leading a strong effort with the U.S. Forest Service, 
the National Forest Foundation, Denver Water or Rural Water, 
Coca-Cola, and many others to restore the landscapes destroyed 
in the Hayman fire some 10 years ago. A business called West 
Range Reclamation, based in Hotchkiss and a contractor for the 
State's first long-term stewardship contract, has partnered 
with the U.S. Forest Service to complete over 70,000 acres of 
forest improvement projects in 5 western States since 2001, 
creating 55 full time jobs and subcontracting over 50 more.
    Colorado's second long-term stewardship contract was 
recently approved and will restore more than 1,000 acres a year 
around the town of Pagosa Springs. This project was led by a 
local businessman in cooperation and conjunction with the U.S. 
Forest Service and the local collaborative force group. It will 
use the complete chain of forest products by developing a small 
sawmill and a biomass energy facility, reducing wildfire risks 
while also producing local jobs and clean energy.
    Right here in Colorado Springs, our very own Colorado 
Springs Utilities collaborates with the U.S. Forest Service to 
improve forest health conditions for critical water supplies 
and has a cooperative agreement with the Colorado State Forest 
Service to manage nearly 16,000 of city owned watershed lands.
    These examples show that proactive force management done in 
the right way can have a whole constellation of benefits. You 
provide jobs to rural communities. You produce timber for homes 
and businesses and biomass for renewable energy. In the 
process, you protect homes and other infrastructure. You can 
improve habitat for endangered species and other wildlife. You 
increase forage production for livestock. You preserve 
watersheds that deliver much needed water to our irrigated 
fields, municipalities, and waterways.
    The point I'm making is that there is a lot of opportunity 
here. We've long known the Chinese have a symbol for crisis. 
That symbol is actually made up of two symbols. One symbol 
represents danger. The other represents opportunity. I think 
there's enormous opportunity in the danger that we face and the 
tragedies that we've experienced.
    So, again, I want to thank everybody for attending today.
    Let's move to the experts. I know you came to hear them, 
not solely the senior senator from Colorado. As long as you 
don't call me the senior citizen, Pam, I'm going to be all 
right with that. But it's great to have everybody here.
    I think we'll start from left to right. Why don't I, in 
turn, introduce each witness as you begin to testify. So we'll 
start with Mike King, who is the Director of the Colorado 
Department of Natural Resources, who grew up on the West Slope 
and is a wonderful asset in the Hickenlooper administration.
    Mike, welcome. We look forward to your comments.
    I would remind all of you that you each have 5 minutes. If 
you can stay within that timeframe, I'd appreciate it. I won't 
bring the gavel down too heavily if you exceed it by a little 
bit of time. But we look forward to your comments.
    Director King.

STATEMENT OF MIKE KING, EXECUTIVE DIRECTOR, COLORADO DEPARTMENT 
                OF NATURAL RESOURCES, DENVER, CO

    Mr. King. Senator Udall, I appreciate the opportunity to 
come speak with you about this issue that is so critical to the 
future of the State of Colorado. Within the purview of natural 
resources, I can't think of an issue that is more complicated, 
more of a Gordian knot than forest health at this point.
    I agree with you that there are opportunities. But as of 
right now, to say that forest health management is challenging 
is really a gross understatement. We are facing 4 million acres 
of dead and dying bark beetle trees. We are wrestling with a 
drought that we haven't seen since 2002 and prior to that. That 
was considered the drought of the century. We have a weak 
forest product market, and we can't afford to treat even a 
fraction of the trees in the areas that need attention right 
now.
    So that puts us in a situation where prioritization is 
absolutely critical. The year 2012 has been one of the worst 
fire years in Colorado's history. We had 3 notable fires along 
the Front Range, and they occurred during the spring and 
summer. We lost over 100,000 acres of trees. Over 600 homes 
were lost. Tragically, we lost 6 lives.
    So the question becomes: What can we do to minimize the 
risk of these types of fires in the future, and how can we pay 
for those efforts? We look at forest management in 3 areas, 
much the same way you do. The pre-fire mitigation is probably 
where our efforts return the most from a cost benefit analysis. 
The most efficient way to treat the fires is not to have them 
in the first place, or if we have them, to have them in healthy 
forests where the magnitude and scope is dramatically smaller.
    We appreciate your leadership in 2010, bringing $40 million 
to this area for our bark beetle efforts. It was very 
important, and the money went to some of the critical areas 
that we're talking about. But we have over a billion dollars in 
bark beetle needs alone in Colorado, just to put that into some 
sort of scope.
    The Four Mile assessment that we continue to review, the 
after-action report that you were so critical in bringing 
about, showed that there are some lessons to be learned. We had 
defensible space work that was done, but we learned that the 
slash piles that remained in place posed a significant threat, 
so that removing or knocking the trees down is important. But 
if you don't remove the fuel, you don't get the full benefit. 
Those who didn't remove the fuel from the forest floor found 
that their homes were far more likely to burn than those who 
had defensible space and were in areas where the fuel was 
removed. That's critical.
    That brings us to, of course, the question: What do we do 
with that fuel when we cut it? Because we need to have a market 
for it. Fire suppression is, obviously, critical. The early 
response is the key, and with the number of lightening strikes 
and other causes, it's always a question of prioritization and 
trying to do as much as we can.
    The funding is absolutely paramount. What we've seen--and 
you referenced it--with a greater and greater portion of the 
United States Forest Service funding going to fire suppression 
each year, what we're seeing is that oftentimes those funds are 
depleted early in the season, and the Forest Service is left 
with no choice other than to look at other areas and take those 
funds from forest management, paradoxically taking them from 
the pre-fire treatment that would reduce the risk in future 
years. So it becomes a very difficult cycle.
    Then, finally, the post-fire recovery--FEMA provides good 
support for the post-fire recovery through the Fire Management 
Assistance Program. But we know that treating forests ahead of 
time is far more cost effective, and we urge FEMA to expand the 
use of those disaster mitigation funds to include prevention 
treatments.
    The prioritization that we discussed really leads us 
directly to the wildland-urban interface. In Colorado, in 2007, 
it was estimated that we had 715,000 acres in the wildland-
urban interface. That's predicted to go by 300 percent by 2030. 
These are the areas that should be prioritized for the 
treatment that we do. Frankly, we don't even have the resources 
to treat the WUI, much less the broader country, the roadless 
and the wilderness that you referred to.
    So we do support an idea that was in draft legislation to 
identify critical areas and streamline the review and 
implementation processes in those critical areas. Those would, 
of course, be the wildland-urban interfaces where the 
communities and homes are most in jeopardy. We also strongly 
urge Congress to reauthorize stewardship contracting and the 
Good Neighbor Authority permanently. We think that those allow 
us the tools to get the most for our limited resources at the 
State level.
    In Colorado, like many other western States, we continue to 
work to bolster our traditional forest products industry. 
You'll hear more from Nancy Fishering later. But we also began 
to explore innovative approaches, including the use of woody 
biomass for thermal heat. Last year, we formed the Biomass 
Working Group and tasked it with identifying barriers to the 
development of this industry, and they are making 
recommendations to overcome those barriers. In Pagosa Springs, 
we have the first example of a biomass energy plant. We hope to 
see this effort replicated.
    Finally, Senator, I appreciate your efforts to keep this 
front and center in our public discourse. It is one of, if not 
the most critical issue, because forest health impacts every 
other aspect of our natural resources, to the very essence of 
our water and our ability to keep communities alive and healthy 
and thriving.
    If we are to succeed, it will require leadership at the 
Federal level, the full efforts of the State, our local 
governments, and the citizens who live in these areas, all of 
us working together making the resources that we have available 
to this effort. We are committed at the State level to making 
sure that we live up to our obligation. I want to thank you 
again for your leadership on this.
    [The prepared statement of Mr. King follows:]

     Prepared Statement of Mike King, Executive Director, Colorado 
              Department of Natural Resources, Denver, CO
    Mr. Chairman and members of the committee, I appreciate the 
opportunity to speak to you about a critically important issue in 
Colorado, the health of our forests. My testimony today will address 
the statewide impact of recent wildfires, funding for wildfire 
prevention, suppression, and recovery, challenges presented by 
Colorado's vast wildland/urban interface, and ways in which our forests 
might be managed to improve their resiliency and reduce the risk of 
catastrophic wildfire in the future. I will address the role and 
importance of federal authorities, market-based incentives, state land 
management, and place-based forest collaboratives in helping us improve 
the health of our state's forest resources.
    The problem of forest health is compounded by the bark beetle 
epidemic across Colorado, one that has left us with millions of acres 
of dead and dying trees. Markets for these trees are weak or non-
existent, making it prohibitively expensive to treat all the areas that 
need attention. Drought has intensified the fire-prone condition of our 
forests. These challenges facing Colorado and many western states are 
being addressed with active forest management. Our state has a range of 
efforts underway designed to help restore forest health while 
simultaneously revitalizing our forest products industry.
                          2012 wildfire season
    As the Committee is likely aware, Colorado has already had an 
intense fire season. Toward the end of March, the Lower North Fork Fire 
burned for a week in a populated area near Conifer, south of Denver. 
That fire resulted in the tragic deaths of three people, the loss of 27 
structures, and the scorching of 4,140 acres. At the peak of the fire, 
over 900 homes were evacuated. Just two months later, the High Park 
Fire erupted north of Fort Collins. That fire burned 87,284 acres, 
destroyed 259 homes and 112 outbuildings, and resulted in one fatality. 
Before that fire was fully extinguished, the Waldo Canyon Fire outside 
of Colorado Springs erupted, eventually scorching 18,947 acres, 
destroying 346 homes, and leading to two fatalities.
    The fire season isn't over yet, but our work is now divided between 
recovery from these destructive blazes and continuing to reduce the 
risk of having additional fires. Impacts from the fires have touched an 
array of individuals and agencies. Costs associated with wildfires 
include suppression actions during the fire, structure and property 
loss. Additional direct impacts include those to water facilities and 
water quality. Longer term, revegetation and erosion prevention 
activities can continue for decades.
    For example, following the Buffalo Peaks Fire (1995) and Hayman 
Fire (2002), erosion continued to cause problems for downstream 
Strontia Springs Reservoir. Finally, in 2011, Denver Water had no 
choice but to dredge it in order to remove the accumulated 
sedimentation. The dredging project cost the utility an estimated $30 
million.
                         funding for wildfires
    We tend to think of funding for wildfire in three categories: pre-
fire mitigation efforts, fire suppression once the fire is underway, 
and then post-fire recovery.
Pre-Fire Mitigation and Forest Health
    Before a fire, maintaining forest health and protecting homes and 
communities can reduce the eventual costs of wildfire. With 
approximately 4 million acres of bark-beetle infested dead and dying 
trees around the state, the scale of the challenge is daunting. Paying 
for treatments that might mitigate this forest health challenge has 
been exacerbated by a weak market for forest products in the state. 
Since we know we cannot afford to treat every acre that deserves 
attention, prioritizing treatment areas is essential.
    We appreciate the efforts of Senator Udall and his colleague 
Senators from Wyoming and South Dakota in securing $40 million in 
fiscal year 2010 to this region of the U.S. Forest Service to help 
mitigate the effects of falling dead bark beetle-killed trees as well 
as additional treatment work in this infested area of our state and 
region. That funding has indeed helped, but we have much more work to 
do. It is estimated that the cost to treat the dead trees in the nearly 
4 million areas hit hard by this current bark beetle epidemic could 
cost upwards of one billion dollars alone.
    After the devastating 2010 Fourmile Canyon Fire, where 168 homes 
were destroyed north of Boulder, Sen. Udall requested a thorough 
assessment of the incident from the Rocky Mountain Research Station. We 
appreciate the Senator's leadership, and the report was released last 
month (Gen. Tech. Rep. RMRS-GTR-289; July 2012). One of the most 
interesting findings was that while several fuels treatment projects 
had been conducted within the area that eventually burned, many of 
those treatments failed to protect homes. Those projects had been 
focused on improving the health of the forest, developing safe travel 
corridors, and creating wildfire defendable zones using a shaded fuel 
break near homes and communities. However, surface debris from the 
treatments had not been removed in many instances either physically or 
by prescribed fire. Thus, the efficacy of the fuel treatments was very 
limited. This finding underscores the challenges associated with 
funding shortages; while clearing timber is important, removing the 
material is an expensive--and critical--piece of the strategy. 
Incentivizing the removal of woody biomass could shift this pattern so 
that forest treatments include that pivotal step. However, the results 
did show that if property owners both removed excess trees and surface 
vegetation, their chances of protecting their homes was improved, which 
suggests that we need to do better about encouraging defensible space 
around homes and communities.
Fire Suppression
    Early response to wildfires is essential to ensure public safety, 
reduce costs, and minimize damage to natural resources. Along with 
three other western Governors, Governor Hickenlooper in July wrote a 
letter to leadership in Washington, DC, urging Congress to provide 
adequate funding through FEMA for states and local jurisdictions 
pursuing fire recovery. The Fire Management Assistance Program is 
particularly important for these efforts. Additionally, the Governors 
noted their concern with the ongoing pattern whereby land management 
agencies exhaust the funds available for firefighting and are forced to 
redirect monies from other programs, including, ironically, fire 
mitigation work. Raiding the budgets for recreation in order to pay for 
fire suppression presents a significant problem in Colorado, where our 
outdoor recreation opportunities on public land are unparalleled. We 
support minimizing fire transfer within the federal land management 
agencies, and more fully funding existing suppression accounts.
Post-Fire Recovery
    Colorado appreciates the range of federal support available to 
assist with post-fire recovery, primarily through the BAER teams and 
FEMA.
    While FEMA has provided invaluable support for post-fire recovery, 
the research is clear: treating forests ahead of time and preventing 
fire from occurring is more cost effective. For this reason, we urge 
Congress to work with FEMA to expand the use of their disaster 
mitigation funds to include disaster prevention treatments.
                      the wildland-urban interface
    A recent Colorado State University study (D. Theobald and W. Romme, 
2007) estimated the size of the WUI in our state as encompassing 
715,000 acres; that same study predicts a 300% increase to over 2 
million acres of WUI by 2030. Homes in the WUI are particularly 
vulnerable to wildfire. They also present an unusual public policy 
challenge, as individual homeowners need to be brought into a 
landscape-scale approach that is based on the best available science.
    The Fourmile Canyon Fire Report (referenced above) noted that home 
destruction in the fire was due to direct firebrand ignitions and/or 
surface fire spreading to contact the home. Therefore, significantly 
reducing the potential for WUI fire disasters during extreme burning 
conditions depends on a homeowner creating and maintaining a safe home 
ignition zone or HIZ--the design, materials, and the maintenance of the 
home including the area 100 feet around it. The Colorado State Forest 
Service works with homeowners to help them assess and then treat 
forested land to reduce the threat from fire. That agency is funded 
largely through the State and Private Forestry program in the USFS 
budget, and their work is limited by the funds available to support 
their efforts. Again, these limitations point to the need for 
prioritization.
    We support the concept of identifying ``critical areas'' on our 
national forests that are at high risk of catastrophic wildfire, and 
then applying streamlined review and implementation processes for 
thinning projects. These areas are in urgent need of expedited 
treatment to reduce fuel loads to help reduce the threat to communities 
from wildfires. Because our most urgent need is around communities, we 
suggest defining the concept so that it refers exclusively to areas 
within the WUI. This would allow for a focus of scarce resources to the 
areas that are most critical: near homes, communities, and water 
facilities. The Governor recently sent a letter on July 6, 2012 to the 
Senate and House Agriculture Committees urging that this concept--as 
well as many others--that appear in the Forestry section of the 2012 
Farm Bill be adopted and passed so that we can employ these provisions 
as soon as possible.
                          federal authorities
    In addition to the ``critical area'' designations identified in his 
letter regarding the Farm Bill, the Governor identified two other 
federal authorities have played a key role in Colorado as we work to 
find a private market for forest products, enhance the health of our 
forests, and reduce the risk from wildfire. Those provisions are 
Stewardship Contracting and Good Neighbor Authority.
    Stewardship Contracting allows the USFS to focus on goods (trees 
and other woody biomass) for services (removal of this material), and 
helps the agency make forest treatment projects more economical. 
Individuals who seek to build a business that requires a reliable 
supply of timber have consistently reported that long term Stewardship 
Contracts provide them with the security they need to secure 
investments. We support permanent authorization for stewardship 
contracting.
    Good Neighbor Authority allows states, including our own Colorado 
State Forest Service, to perform forest treatments on national forest 
land when they are treating neighboring non-federal land. This 
landscape-scale approach is essential for achieving landscape-scale 
forest health. Fires don't respect ownership boundaries. We support 
permanent authorization for Good Neighbor Authority.
                        market-based incentives
    Another way to encourage the removal of woody biomass is to provide 
incentives for the private sector. Using the wood to create traditional 
forest products is one avenue. More recently, Colorado (and several 
other states) has begun to explore the viability of using the wood as 
an energy source. Colorado's 2011 Forest Health Act (SB11-267) created 
a Biomass Task Force, tasked with researching the barriers to the 
development of such an industry and making recommendations for 
overcoming those barriers. The report noted that

          Colorado should use more forest biomass to reduce the fuels 
        available to catastrophic wildfires. Biomass could be used in 
        wood-to-energy efforts, which work more effectively where the 
        full-value product chain, (i.e., the full range of possible 
        wood products is produced), is generated through forest 
        management activities. Higher-value uses of wood, such as 
        lumber and wood paneling, provide the financial support to 
        remove and utilize lower-value woody material, such as biomass 
        for energy, allowing this material to be used efficiently, 
        rather than being left behind to fuel a wildfire.
                              state lands
    So far, this testimony has focused on the challenges facing federal 
and private lands. We do, however, want to mention state lands. As with 
federal public lands, the cost of removing trees when the vegetation 
removed is of low economic value makes their removal costly. Of the 
4,483,638 million acres of land that the state manages (State Trust 
Lands, State Parks, and State Wildlife Areas), about 845,000 acres is 
forested, and of that about 297,000 acres has been impacted by the bark 
beetle, and of this about 8,000 acres is within the wildland/urban 
interface. That means that of the 3.5 million acres of forest lands 
affected by the bark beetle, state lands represent 0.2 percent of the 
immediate threat to homes and communities. Still, we have been actively 
treating these lands--when we can secure the funding to do so. To date, 
the state has treated--that is, removed excess vegetation that 
constitutes the fuel for intense wildfires--about 48,000 acres. Much of 
this work was done with federal assistance (about $2.5 million between 
2006 and2010), and this federal funding required state matching 
dollars. The state is actively pursuing additional federal funding 
(again requiring state matching dollars) for this year and beyond.
                          collaborative groups
    Colorado has a rich environment of grassroots initiative and 
cooperation that fosters gatherings of people from differing 
backgrounds and interests coming together to address forest issues in 
specific geographic locations through collaborative approaches. 
Although there is a current national trend of citizens organizing 
collaborative groups to work together to address complex issues facing 
forests on public and private lands at the local and regional levels, 
Colorado has a long tradition of successful collaborative problem 
solving spanning nearly thirty years. There are twenty identified 
place-based forest collaboratives of all sizes, organizational 
structures, missions and operational philosophies active in Colorado 
and at least three new collaboratives are being formed. Because of this 
rich environment of collaboration, Colorado became the only state to 
receive multiple awards when it got two highly competitive USDA 
Collaborative Forest Landscape Restoration Program grants in 2010.
                               conclusion
    Colorado is facing a host of challenges when it comes to managing 
our forest resources and reducing the risk of wildfire to homes and 
communities. The strength of our place-based collaborative groups 
allows them to partner with land management agencies to leverage scarce 
resources. Innovative small businesses have begun to emerge in the 
state, seeking to make creative use of woody biomass. But Colorado 
needs help. As described here, permanently authorizing provisions that 
help our efforts is an essential step. We look forward to working with 
this committee in whatever way is useful.
    Thank you for your ongoing interest in and passion for these 
issues.

    Senator Udall. Thank you, Director King. I would also like 
to acknowledge that the Department of Public Safety at the 
State level has an important role to play. I know you work 
closely with them. I see Jim Davis here. Perhaps Paul Cooke is 
here as well, representing the Department of Public Safety. So 
thank you for bringing the wealth of knowledge and experience 
here to Colorado Springs.
    Dr. Kaufman will testify next. He's the Scientist Emeritus, 
U.S. Forest Service, Rocky Mountain Research Station, and he's 
a contract scientist for the Nature Conservancy. I have to tell 
all of you that Dr. Kaufman played a key role in the evolution 
I underwent in the late 1990s when it came to forest health. I, 
at some level, still believe every tree is a good tree. But I 
had to understand that not every tree should be where we now 
have those trees. Dr. Kaufman can put it more articulately than 
I just did.
    But I also wanted to acknowledge that Congressman Hefley--
who represented this area well and was a class act--and I 
joined forces in 1999 to begin to address some of the forest 
health concerns that were beginning to emerge, in large part 
because Dr. Kaufman, along with Dr. Covington down in 
Flagstaff, and this very focused group of forest scientists 
began to put the clarion call out that we were facing a threat 
like one we had never seen before.
    So, Dr. Kaufman, it's terrific to see you. Thank you for 
taking your time, and thank you for being so engaged in this. 
The floor is yours.

  STATEMENT OF MERRILL R. KAUFMAN, EMERITUS SCIENTIST, FOREST 
     SERVICE ROCKY MOUNTAIN RESEARCH STATION, AND CONTRACT 
               SCIENTIST, THE NATURE CONSERVANCY

    Mr. Kaufman. Thank you. It's good to see you. I really 
appreciate your continued interest in these forest health 
issues, and thanks for including me in these discussions. It's 
where we all need to be.
    I'm going to jump right to some numbers that I've pulled 
together for Front Range ponderosa pine and Doug fir forests. 
That's where all the big fires are occurring and where we're 
losing houses and lives. The numbers I want to share with you 
are based in large part on our understanding of historical 
ecological conditions and processes and also information that 
was assembled for the 2006 Front Range Roundtable report, and 
those pieces of information are still very relevant.
    Our research showed that, historically, significant fires 
occurred in these forests about one to 3 times a century, every 
40, 50, 60 years or so. These fires were mixed in severity. The 
numerous openings that were created by these fires were 
generally between, say, one and a couple of hundred acres in 
size or occasionally a little bit larger. In my studies, we 
haven't seen any evidence of openings that were 1,000 acres or 
larger from these standard placing components of this mix of 
area fires. The forests remained irregular, patchy, and that 
assured that subsequent ground fires couldn't be very large, 
because few areas could develop that had really dense forests 
over large areas.
    We have about 800,000 acres of ponderosa pine and Doug fir 
forest in the Front Range. If historical fire behavior had been 
allowed to continue over the last century, we could have 
expected probably about 180,000 acres converted into temporary 
openings by these natural stand replacing fires. That would 
have been somewhere between a thousand and two and a half 
thousand openings of various sizes across the Front Range in 
that vegetation zone. Most other areas would have been 
significantly thinned and kept thinned by fire, and the forest 
would have remained ecologically sustainable. They would not 
have been vulnerable to these uncharacteristically large crown 
fires that we've been having in the last two decades.
    In just 3 recent fire years alone, 1996, 2000, and 2002--
not even including this year--there were 6 extreme crown fires 
in these Front Range ponderosa pine and Doug fir forests that 
created 6 openings that ranged in size from 3,000 to 60,000 
acres, 60,000 being the Hayman fire. So roughly 85,000 to 
90,000 acres of crown fire in just 6 openings represents about 
half of the total expected amount of crown fire, but it should 
have been distributed across hundreds to thousands of small 
patches spread throughout the vegetation zone. Furthermore, the 
natural thinning of forests by wildfire has been largely 
eliminated.
    So with that kind of backdrop, we've got new research needs 
that always unfold from our observation of how treatments are 
going and now from looming climate effects. But the scientific 
basis exists for extensive improvement in fuel and forest 
health conditions over the next few years. We're not lacking in 
enough information to make headway.
    Despite hard work by dedicated managers and agencies and so 
forth, far too little has been done to provide adequate 
protection from wildland fires in these Front Range forests, 
and the ecological condition remains poor at best. Effective 
treatment requires massive removal of biomass, and it doesn't 
matter whether it's mechanical or prescribed burning. Somehow 
or another, we've got too much biomass.
    The costs are enormous. Thus far, it's been difficult to 
find adequate value in the removed biomass to significantly 
offset the cost of treating a forest and bringing them into a 
better fuel and ecological condition, especially at the scale 
we're talking about. I think it's safe to say that neither 
agency nor industry capacity seems adequate for the scale of 
work needed. We've got a huge problem and a pretty darned 
limited capacity to address it, in spite of the hard work of 
people.
    I'll conclude just by suggesting that, obviously, I think 
we must pay far more attention to fuel treatment and forest 
restoration in these lower elevation ponderosa pine and Doug 
fir forests. That's where the big fires are occurring, the 
houses lost, and, tragically, the lives are lost.
    I think we also need to be aware that we've got emerging 
research issues that are not well funded. So somehow or another 
we're going to have to address the research component of this 
so we do stay ahead of the curve here, especially as we're 
talking about a scale of treatment and a series of potential 
climate impacts that we don't understand very well.
    The effort needed to address these problems is far bigger 
than we're accustomed to. Yet somehow or another we need to 
find the will, we need to find the way that government, 
politics, the public can all come together to try to solve this 
problem.
    I'll be glad to answer any questions you have after a few 
minutes. But I think I'll conclude with that.
    Thank you.
    [The prepared statement of Mr. Kaufman follows:]

 Prepared Statement of Merrill R. Kaufman, Emeritus Scientist, Forest 
 Service Rocky Mountain Research Station, and Contract Scientist, The 
                           Nature Conservancy
    Current conditions of forests in Colorado threaten public safety, 
property, and health of important natural resources. Beginning in the 
mid-1990s and extending into 2012, a series of major fires in ponderosa 
pine/Douglas-fir forests of the Colorado Front Range damaged 
watersheds, and a thousand or more houses and a dozen or more human 
lives have been lost. During the last decade, mountain pine beetle 
damage to lodgepole pine forests has added serious public safety 
dangers and new forest health issues in higher elevation forests.
    Severe watershed damage and the loss of two lives caused by the 
1996 Buffalo Creek fire prompted the beginning of a series of agency, 
political, and public responses to forest health and wildfire issues in 
the Front Range. Subsequent major Front Range fires included Hi Meadows 
and Bobcat Gulch in 2000, and Schoonover, Big Elk, and Hayman in 2002. 
Long before the 2012 fire season, a series of efforts culminated in the 
2006 Front Range Roundtable report that described the nature and 
magnitude of Front Range forest and wildfire issues, and outlined a 
series of steps needed to mitigate wildfire threats and restore forests 
to a healthier condition.
    My testimony is based in large part upon research conducted in my 
lab on fire history and ecology of historical Front Range forests prior 
to Euro-American settlement, in concert with research conducted by 
colleagues. My testimony is also based upon my extensive participation 
in the Front Range Roundtable deliberations and implementation of 
recommendations. I was one of two presenters of the Roundtable report 
at its rollout in 2006 for Gov. Bill Owens, The Nature Conservancy, and 
other participants.
    Lodgepole pine and beetle kill issues are important, and threats 
posed by falling trees and wildfire loom as a concern across much of 
the state. Nonetheless, people have died, astonishing numbers of houses 
have burned, and watersheds are at risk not in lodgepole pine forests, 
but rather in lower montane ponderosa pine/Douglas-fir forests in the 
Front Range and beyond. We cannot help but note that all the major 
Colorado fires in the last two decades and thus far this year have 
occurred not in beetle-killed lodgepole pine, but in these lower 
elevation, heavily populated forests. Having led a recent review of 
fuel treatment efforts across the country for the national Joint Fire 
Science Program, it became clear to me that Front Range ponderosa pine/
Douglas-fir forests have perhaps the worst forest and fuel conditions 
in the country, especially given the extensive urban interface 
throughout this vegetation zone. Adding in drought, the current 
destructive fire patterns strongly reinforce this assessment.
    As you might recall from our over-flight and discussions following 
the Hayman fire 10 years ago, and from extensive analyses conducted by 
the Front Range Roundtable, these ponderosa pine/Douglas-fir forests 
are in extremely poor condition as a result of past human impacts, 
namely logging, grazing, and fire suppression. And now, climate 
patterns are not working in our favor and appear to support a true 
shift in climatic conditions that will affect many of our forests 
adversely.
                        background information.
    I've pulled together some numbers for Front Range ponderosa pine/
Douglas-fir forests, based in large part on our understanding of 
historical conditions and processes studied at Cheesman Lake in the 
South Platte watershed before that historical forest was destroyed by 
the Hayman fire. And I have included information from the Roundtable 
report that addressed the Front Range more broadly. I presented this 
summary at the 10th anniversary meeting of the Hayman Fire June 21-22.

  <bullet> Historically, significant fires occurred in ponderosa pine/
        Douglas-fir forests one to three times per century. These fires 
        were mixed in severity across the burned area. In some places 
        the fires were relatively cool and burned mostly on the ground. 
        In other areas trees were thinned by fire, and some places 
        burned intensely as crown fires killing all trees. 
        Collectively, patches of crown fires created openings amounting 
        to slightly over 20% of the ponderosa pine/Douglas-fir forest 
        area during each century. The numerous openings created by 
        theses fires were generally between 1 and 200 acres in size and 
        occasionally somewhat larger, but there was no evidence of 
        openings 1000 acres or larger. Most of the newly created 
        openings became reforested within several decades, though in 
        some instances they persisted for well over 100 years. As a 
        result of these fires, forests remained irregular and patchy, 
        assuring that subsequent crown fires were not large because few 
        areas of dense forest were very large.
  <bullet> About 800,000 acres of ponderosa pine/Douglas-fir forests 
        exist in the Front Range. Except for the recent major fires, 
        wildfire has been largely eliminated as a factor shaping forest 
        structure. Most forests have become uniformly dense over large 
        areas, with very few open areas or areas of low forest density. 
        If historical fire behavior had been allowed to continue, we 
        could have expected about 180,000 acres converted into 
        temporary openings by natural stand-replacing crown fires over 
        the last 100 years. Somewhere between 1,000 and 2,500 openings 
        of various sizes might have resulted. Most other areas would 
        have been thinned by fire. Forests would have remained 
        ecologically sustainable and would not have been vulnerable to 
        uncharacteristically large crown fires as we've experienced in 
        the last two decades.
  <bullet> In three recent fire years alone (1996, 2000, and 2002), six 
        extreme crown fires in Front Range ponderosa pine/Douglas-fir 
        forests created six openings ranging from 3,000 to 60,000 
        acres. Roughly 85-90,000 acres of crown fire in just six 
        openings represents about half of the expected amount of crown 
        fire that should have been distributed across hundreds to 
        thousands of small patches spread throughout the ponderosa 
        pine/Douglas-fir zone over 100 years. Furthermore, natural 
        thinning of forests by wildfire has been largely eliminated. 
        Short of conversion to shopping centers or covered by volcanic 
        ash, it is hard to imagine a forest system in more difficulty.

    These numbers and analyses leave little doubt that fuel conditions 
in ponderosa pine/Douglas-fir forests pose unrelenting threats not only 
to an important ecosystem, but especially to human life, property, and 
watersheds. And we are all aware of the dramatic new evidence of 
current fire behavior illustrating the stunning magnitude of this 
problem.
                          worsened by climate.
    Changes in climatic patterns appear increasingly real. I've often 
noted that some of our ecosystems are `out of whack' as a result of 
past management activities. It now appears that all of our vegetation 
life zones are out of whack to some degree. A massive mountain pine 
beetle epidemic from Colorado to British Columbia, more frequent severe 
drought, and extensive fires in forests and shrublands--evidence is 
mounting that climate is triggering extensive changes in our natural 
resource systems. Calamitous ecological trajectories punctuated by 
abrupt disturbances are displacing normal ecological change and may 
well be forerunners of shifting life zones, with important ecosystems 
experiencing highly uncharacteristic and intense agents of change.
                           current situation.
    Based upon existing research and extensive public and private land 
experience, we have a sound understanding of what needs to be done to 
mitigate fuel hazards to protect watersheds, lives, and properties. 
Most of this information has been summarized in the 2006 Front Range 
Roundtable report, and continuing work by Roundtable member agencies 
and organizations such as The Nature Conservancy is both adding 
scientific understanding and increasing the size of treated areas 
having less fuel and better ecological condition. While new research 
needs are becoming clear based upon assessing initial treatment 
responses and looming climate effects, the scientific basis exists for 
extensive improvement in fuel and forest health conditions over the 
next few years.
    Nonetheless, despite hard work by dedicated managers, far too 
little has been done to provide adequate protection from wildland fires 
in Front Range ponderosa pine/Douglas-fir forests, and forest 
ecological condition remains poor. Consider the sheer magnitude of the 
work needed. Effective treatment requires massive removal of forest 
biomass, whether mechanically or using prescribed burning. Costs of 
treating forests range from a few hundred dollars per acre in areas 
suitable for prescribed burning, to two thousand or more per acre where 
biomass has to be removed by logging, chipping, or other procedures. 
Often a combination of treatments is needed. Furthermore, many areas 
are hard to treat because of topography or proximity to urban 
development. This both increases treatment expense and requires 
widespread public acceptance of treatment activities and outcomes. Thus 
far it has been difficult to find adequate value in the removed biomass 
to significantly offset the cost of treating forests and bringing them 
into better fuel and ecological condition.
    Historical forests looked far different from current forests. While 
public reaction to treatment outcomes mimicking historical forests has 
been positive, public reaction has not been tested for the scale of 
treatment work needed to resolve the fuel and ecological problem of 
Front Range ponderosa pine/Douglas-fir forests, particularly where work 
is needed in the wildland/urban interface. Furthermore, neither agency 
nor industry capacity seems adequate for the scale of work needed.
                  please consider two recommendations.
    First, we must place far more attention on fuel treatment in the 
lower-elevation ponderosa pine/Douglas-fir forests of the Front Range. 
Our professional managers know what to do (with a caveat below), but 
they lack resources to do the work. We must find the public, political, 
and agency will to address this problem at a meaningful scale. Thus far 
that will is lacking.
    Second, at a time of growing concerns, we have a research funding 
shortfall. We are facing considerable uncertainty regarding how climate 
shifts mesh with our existing fuel and vegetation management 
guidelines. The Rocky Mountain Research Station, US Geological Survey, 
and universities have limited capacity to do the needed research work.
    The forest health problems we face clearly affect our human lives 
and sense of safety and well-being. The effort needed to address these 
problems is bigger than we are accustomed to, yet somehow we must find 
a way to bring people, government, and politics into play to solve 
these problems.
    This concludes my testimony.

    Senator Udall. Thank you, Dr. Kaufman. Sobering statistics. 
I've known you, though, never to pull your punch or punches, 
and I think you, again, have been such a mentor to me. Thinking 
back on what you've taught me, if any of you in the auditorium 
here want to get a better sense of what we face, just look at 
the photographs of 100 years of the ponderosa and Doug fir 
forests. They were relatively healthy, and there's a lot of 
open canopy. One ponderosa per acre--as I remember it--right, 
Dr. Kaufman--was generally the average.
    Mr. Kaufman. More than one.
    Senator Udall. More than one, but not many more than one. 
Much of the biomass was in grasses and shrubs, not in trees. 
But we'll further explore some of your conclusions.
    Next on the panel is Jimbo Buickerood, who is the Public 
Lands Organizer, San Juan Citizens Alliance, and he is a member 
of the Upper San Juan Mixed-Conifer Work Group. In the interest 
of a full confession, I've known Jimbo for 40 years, although 
he doesn't even look quite 40 years of age.
    But we've known each other for a long time. He's a 
consummate outdoorsman. There's nobody that knows the back 
country better than Jimbo, and I'm glad he's here.
    I look forward to your testimony.

 STATEMENT OF JIMBO BUICKEROOD, PUBLIC LANDS COORDINATOR, SAN 
              JUAN CITIZENS ALLIANCE, DURANGO, CO

    Mr. Buickerood. Thank you, Senator. I think I look younger 
because I'm not in the Senate.
    [Laughter.]
    Thank you for the opportunity to speak today on this 
important issue and welcome to everyone here today. I live in 
the Mancos River Valley, right next to Mesa Verde National Park 
between Durango and Cortez.
    First of all, I want to express my sympathy and condolences 
to the Colorado Springs residents who suffered losses in the 
Waldo Canyon fire as well as other Colorado residents who 
suffered losses in other fires this year. Our Mancos Valley 
community was also impacted by a fire earlier this year that, I 
believe--after listening to the Chancellor, who noted this 
started--the Waldo Canyon fire--was started, I think, 2 days 
before that.
    We are very lucky in that the fire did not result in any 
loss of human life and only minimal property damage. I must say 
that homes and lives were saved, due to the incredibly fast 
response of emergency services and also the preventive efforts 
of home owners who safeguarded their homes and neighborhoods by 
effectively removing hazardous fuels. As well, in my exhibits 
and my testimony, there is a fine article that speaks very 
specifically to what was done in that community that really 
paid off in results. It is eye-opening and very good evidence 
of what can be done.
    As the senator noted today, I represent both the San Juan 
Citizens Alliance and also the Upper San Juan Mixed-Conifer 
Working Group, which is a collaborative community group working 
in the Pagosa area on mixed-conifer issues. Pagosa Springs is 
entirely surrounded by a national forest, and there are 
approximately 144,000 acres of mixed-conifer forest, which 
includes a ponderosa forest there.
    From my work in forest issues over the past few years in 
Colorado, including my involvement in the Mixed-Conifer Working 
Group, I just want to share 3 fundamental points to start with 
here having to do with reduction of wildfire hazards in the 
wildland-urban interface or, as I hope everyone knows the term, 
WUI. These are all things that should become our common 
language, actually, living in Colorado.
    First, we know that the existing structure of Federal 
environmental regulations, including the National Environmental 
Protection Act and the Healthy Forest Restoration Act, provide 
both the broad authority and sufficient flexibility to support 
Coloradoans in addressing the challenges we have with our 
Colorado forests. There is no need to pass additional 
legislation, such as some now being examined in the House of 
Representatives, to create new logging authorities, or to 
transfer the jurisdiction of our public lands from the Federal 
to State government in the name of wildfire hazard reduction.
    Indeed, we have a regulatory structure through both NEPA 
and HFRA that effectively supports us and allows us to address 
the challenges at hand. Both of these processes include one of 
the most important pieces of the solution, that of public 
engagement. It is public engagement that brings us public 
dialog and full disclosure, and that leads to good projects and 
good outcomes. I think the example of the work we've done in 
the Pagosa area is very specific to that. So when it comes to 
the statutory and regulatory environment, the solution is: It 
works. There is no need to change any of that structure.
    Second, we need to continue to have greater funding and 
continued funding to deal with these challenges. There is no 
way around that. You know, the reasons for where we're at now 
are multiple. Both of the gentleman who spoke before me spoke 
of some of those, including disease and insect outbreaks, 
climate change, forest management practices, settlement 
patterns, and others.
    Because we know funds are limited and they need to be used 
wisely, the primary question really is: How do we best use the 
resources available to us? I'd like to look at that, and we've 
looked at it in our working group, really from a business point 
of view, which is: What is the best return on our investment? 
That's what we need to drill down to.
    Fortunately, we have sound research and findings from 
recent reports, though, as Dr. Kaufman noted, we need to keep 
on that one. There's lots to learn. But, you know, findings 
such as the Four Mile Canyon fire study really have given us 
information about what we need to work on. I would say that 
supporting initiatives such as the Community Wildfire 
Protection Plan work and the Firewise program, are very 
important pieces to the solution puzzle.
    We also know that when we invest in fuel reduction 
projects, the best use of funds is dealing with the hazards 
that are close to homes, businesses, and infrastructure. There 
is no need, and it is a poor use of resources and even brings 
false hopes to suggest that extensive logging of dead or dying 
trees will necessarily save homes and lives. The hazard is 
closer to home than that.
    As Senator Udall noted, when reviewing findings of the Four 
Mile Canyon fire study, the fire taught us that the most 
important yard tool you can have in a wildlife prone area is 
not a chain saw. It's a----
    Senator Udall. Weed whacker.
    Mr. Buickerood. A rake.
    Senator Udall. A rake. I thought Dr. Kaufman was going to 
give me the quiz today.
    [Laughter.]
    Mr. Buickerood. I just wanted to be sure you remembered 
your previous remarks.
    The other piece I want to speak to is, I think, a worthy 
piece of funding that has been mentioned here previously, which 
is the long-term stewardship contracts. It's important that 
those efforts be supported. These can't be one or 2-year, you 
know, shotgun approaches, but multiyear approaches in 
communities.
    Third, I just want to note that an important piece of that 
is community involvement. When wildfires burn close to homes or 
in communities, they affect everyone in the community, as the 
Chancellor pointed out. As we've seen, an effective response to 
wildfire necessitates community-wide response. Similarly, 
effective prevention necessitates community-wide decisions.
    I would just say that although the efforts and the work 
that we're doing at the Mixed-Conifer Working Group in Pagosa 
Springs may not necessarily be a template for all Colorado 
communities, if you look at the report that's with one of my 
exhibits--and we can talk further about this--that type of 
community model where all the stakeholders are involved in 
decisionmaking and priority setting is extremely important if 
we're going to move forward on this. We don't have all the 
money we want, so we need to make some choices, and they will 
best be made by the community with extensive involvement.
    Just a couple of other little pieces here on--I want to 
talk a little bit about the Mixed-Conifer Working Group, 
because I do think it's a good model. It's a working group that 
was developed, actually, out of an outgrowth of a tour, I 
believe, sponsored by the Colorado Forest Restoration 
Initiative quite a few years ago. That group has been operating 
since July 2010. It is an incredibly diverse group, with more 
than 60 members. I can't say it's always a cum-bah-yah moment 
of hand-holding and singing and we're all going in the same 
direction. But, of course, we know that's one of the great 
things about collaborative work groups, is that dialog and so 
forth.
    So we've had many informational presentations, a lot of 
good dialog. We've had tours on the ground, and now we're at 
the point of looking at what projects might be available, how 
we outreach the community and move forward with the projects, 
and with those, monitoring work as well to really know what the 
outcome of our work is going to be.
    In conclusion here, I just want to share a quote from Kevin 
Khung, who is the district ranger of the Pagosa district of the 
San Juan National Forest, which is the Pagosa area, that really 
sums up the spirit of the group. ``The Upper San Juan Mixed-
Conifer Working Group is a diverse cross-section of people 
interested in public lands. The group's desire to openly share 
and learn from one another, as well as to support possible 
solutions, is extraordinary. The fact that they want to be 
problem solvers rather than problem identifiers is encouraging 
for all public land managers.''
    We know, realistically, that it's not true that all public 
land managers and Forest Service personnel are willing to 
engage the public in such an open fashion dialog for solutions. 
But I think, as Director King pointed out, that is the way 
forward. It's that engagement of communities in really honest 
dialog and looking at the choices if we're really going to make 
any headway on the challenges that Dr. Kaufman outlined.
    So thanks once again for the opportunity to speak as we 
move forward on some problem solving here. Later on, if you're 
up for it, I'd love to ask you a couple of questions about the 
work that you're doing on some kind of ancillary issues that 
might relate to this, including such things as the insurance 
industry and how that either supports residents or is 
problematic for them.
    So thank you very much.
    [The prepared statement of Mr. Buickerood follows:]

 Prepared Statement of Jimbo Buickerood, Public Lands Coordinator, San 
                  Juan Citizens Alliance, Durango, CO
    Good Morning Senator Udall, Members of the Panel, and fellow 
Coloradoans.
    I'm Jimbo Buickerood and I reside with my family in the Mancos 
River Valley lying just to the east of Mesa Verde National Park. I 
appreciate and am honored by the invitation to come here today to share 
my perspectives on the topic of Forest Health and Wildfire, and most 
importantly to identify solutions to the challenges we collectively 
face.
    First of all, I want to express my sympathy and condolences for 
those in the Colorado Springs area who suffered losses in the Waldo 
Canyon Fire, as well as those other Colorado residents who endured loss 
in the other wildfires this year in the state.
    Our Mancos Valley community was also impacted by a wildfire earlier 
this summer when the 10,000 acre Weber Fire burned Bureau of Land 
Management and private lands immediately east of the Town of Mancos. 
Fortunately the fire resulted in no loss of human life and only minimal 
property loss. Homes and lives were saved due to incredibly fast and 
effective response by firefighters and the preventive efforts of 
homeowners who safeguarded their homes and neighborhood by effectively 
removing hazardous fuels.
    Today I represent both the Upper San Juan Mixed-Conifer Working 
Group, whose collaborative work is focused on the forest lands in the 
Pagosa Springs area, and the San Juan Citizens Alliance at which I am 
the Public Lands Coordinator.
    The San Juan Citizens Alliance is a 26 year-old membership 
organization that organizes people to protect our water and air, our 
lands, and the character of our rural communities in southwest Colorado 
and northwest New Mexico.
    Our nine staff focus on four program areas, 1) the Wild San Juans, 
working to preserve the San Juan National Forest and Bureau of Land 
Management lands and adjacent areas; 2) the Dolores River Campaign, 
protecting the Dolores River watershed; 3) a River Protection program 
safeguarding river flows and water quality in the San Juan basin; and 
4) the San Juan Basin Energy Reform Campaign, ensuring proper 
regulation and enforcement of the oil, gas and coal industry and 
transitioning to a renewable energy economy.
    From my work on forest issues in southwest Colorado over the past 
few years, including involvement in the Upper San Juan Mixed-Conifer 
Working Group I would like to share three fundamental points related to 
the goal of reducing wildfire hazards in the Wildland Urban Interface, 
the so-called ``WUI.''
    First, we know that the existing structure of federal environmental 
regulations including the National Environmental Protection Act (NEPA) 
and the Healthy Forest Restoration Act (HFRA) of 2003 provide both the 
broad authority and sufficient flexibility to support Coloradoans in 
addressing the challenges we have in some of our Colorado forests. 
Simply said, there is no need to pass additional legislation, such as 
some now being examined in the House of Representatives, to create new 
logging authorities, or for transference of jurisdiction of our public 
lands from the federal government to the state government in the name 
of wildfire hazard reduction.
    Indeed, we have a regulatory structure in place that both 
effectively supports us, and allows us, to address the challenges at 
hand. Both NEPA and HFRA include one of the most important pieces to 
the solution, that of public engagement which fosters public dialogue 
and full disclosure, elements that lead to good projects with good 
outcomes. It is a relief to know that when it comes to the regulatory 
structure to address wildfire hazard reduction in Colorado, the 
solution is simple: ``don't change it--it's not broken.''
    Secondly, we need continued and greater funding to address the 
challenges presented by a substantial increase in wildfire hazard 
throughout the state. While the reasons behind the increased challenges 
are many and include insect epidemics, climate change, settlement 
patterns, past forest management practices, and others--there is no 
doubt that funds are needed to address the current challenge. Because 
we know funds are always limited and must be used wisely, the primary 
funding question to resolve is, ``How can we most effectively use the 
funds and resources available?,'' or with a business mindset it can be 
framed as ``What is the best return on investment?'' The solution 
therefore relates directly to where and how we prioritize the resources 
available to us.
    Fortunately we have sound research and findings from recent 
reports, such as the Four Mile Canyon Fire Study, that point the way 
towards the best use of funds. We know that increasing public fire 
awareness is important, especially for those that live and work in the 
Wildland Urban Interface, the WUI. Support for initiatives such as 
designing and implementing Community Wildfire Protection Plans (CWPP's) 
for all Colorado communities potentially in harm's way of wildfires is 
a very effective use of funds, as is support for the Firewise program 
that educates and supports homeowners to minimize wildfire hazards 
surrounding their homes. Coloradoans living and working in the WUI 
should become familiar with such terms as HIZ, the Home Ignition Zone, 
and how to ``firewise'' our communities.
    We also know that when we invest in fuel reduction projects, the 
best use of funds is reducing hazardous fuels close to structures. The 
solution lies in fuels reduction projects close to homes, businesses 
and public infrastructure rather than deep incursions into the forest 
hoping that extensive logging of dead or dying trees might save homes 
and lives. As Senator Udall noted when reviewing the findings of the 
Four Mile Canyon Fire, ``This fire taught us that the most important 
yard tool you can have if you live in a wildfire-prone area is not a 
chainsaw; it's a rake and a weed-whacker.''
    One other particularly worthy use of funds is the support for long 
term stewardship contracts that allow communities to make a multi-year 
and prioritized effort towards reducing wildfire hazard in forest lands 
adjacent to them. The long term aspect of these contracts is 
particularly important because of the considerable effort and 
investment necessary to prepare and initiate these contract projects, 
therefore funding and policy to support the contracts should be focused 
on 5 to 10 year stewardship contracts.
    Thirdly, I have come to recognize that a central piece of the 
solution to address wildfire hazard reduction in Colorado is the 
element of involving a wide spectrum of people and interests in every 
community to address this challenge. When wildfires burn close to, or 
in our communities, they affect everyone in the community and as we 
have seen, an effective response to a wildfire emergency necessitates a 
community-wide response. Similarly, effective prevention necessitates 
community-wide decisions and actions in anticipation of the 
catastrophes that can take place.
    I suggest that we need to shift more of our focus and funds towards 
the engagement of communities in defining and preparing for their 
future as ``Firewise community.'' Though the effort of Mixed Conifer 
Working Group in Pagosa Springs may not necessarily be a template for 
all Colorado communities who reside in the Wildland Urban Interface, it 
does effectively model the approach that the a community desiring to 
deal with the wildfire challenge can move forward by bringing together 
as many constituencies as possible to understand, plan and implement 
prevention actions. Whether these actions are implementing Community 
Wildfire Protection Plans, initiating an active Firewise outreach 
program, providing recommendations to federal or state forest managers, 
or others; it is likely that a collaborative community effort will 
bring the most effective wildfire prevention to a community most 
quickly.
    To provide more detail as to the possible substance and process of 
a community-wide effort working to address these issues I would like to 
share the story of the Upper San Juan Mixed-Conifer Working Group, a 
collaborative community group focused on forest and wildfire issues on 
both public and private lands in the Pagosa Springs area.
    The Mixed-Conifer Working Group was established to provide a venue 
to share stakeholder perspectives and to develop science-based 
collaborative priorities for management and monitoring of mixed-conifer 
forests on the Pagosa Ranger District (RD) of the San Juan National 
Forest in southwestern Colorado. The group has been active since July 
2010.
    The groups mission statement reads, ``The Upper San Juan Mixed-
Conifer Working Group is committed to collaborative approaches to 
improving the health and long-term resilience of mixed-conifer forests 
and the communities located near them in southwest Colorado. The 
workgroup will focus on strengthening understanding, sharing knowledge 
and lessons learned, developing management approaches, initiating high 
priority projects, and monitoring results using an adaptive 
framework.''
    The spirit of the group is summarized nicely with this quote from 
Kevin Khung, the District Ranger for the Pagosa District of the San 
Juan National Forest: ``The Upper San Juan Mixed-Conifer Working Group 
is a diverse cross section of people interested in public lands. This 
group's desire to openly share and learn from one another as well as 
support possible solutions is extraordinary. The fact that they want to 
be problem solvers rather than just problem identifiers is encouraging 
for all public land managers.''
    The Working Group members are a varied set of people and groups 
representing business interests, conservation organizations, local 
governments, Colorado State Forest Service, U.S. Forest Service, 
recreation, ranching, home owner associations, fire protection district 
officials, scientists, utility companies, as well as many interested 
citizens. The diverse nature of the group insures that all interests 
have a place at the table, which increases the reliability that the 
recommendations of the groups will reflect and be supported by the 
community as a whole.
    The Working Group meetings consist of a blend of informational 
presentations, field tours, forest management and policy dialog, 
wildfire hazard and protection discussions, and other sessions in which 
the group examined both the overall status of forest health and 
wildfire hazards, as well as the specific examination of the status of 
eight polygons representing about 144,000 acres of forest surrounding 
Pagosa Springs.
    The Working Group is cognizant of the many ecological, social, and 
economic trade-offs within forest and community landscapes. Using this 
reality as guidance, the workgroup has made recommendations as a means 
of planning and implementing a range of high quality projects that will 
contribute to improvement in forest conditions on the San Juan National 
Forest. The themes and parameters of the recommendations are offered as 
a set of directions and guidelines that will serve as a framework for 
long-term project work. They are also intended as goal and objective 
statements that can guide implementation and monitoring, rather than 
mandates that must be achieved at every step throughout the process.
    The following set of general principles and values were decided 
upon by the Working Group and to the extent possible, the following 
guidance will be utilized:

  <bullet> A watershed perspective will be emphasized as a management 
        framework, wherever possible.
  <bullet> In some vegetation areas, particularly cool-moist mixed-
        conifer, additional field monitoring and evaluation are needed 
        as part of an adaptive management approach.
  <bullet> Management activities will emphasize forest resilience and 
        diversity.
  <bullet> Environmental assessments for proposed projects will address 
        water quality, wildlife habitat, insect and disease trends, 
        wildfire mitigation objectives, invasive weeds, and recreation 
        activities, among other ecological and community needs and 
        concerns.
  <bullet> To the degree possible, management activities that mimic 
        natural disturbances will be utilized.
  <bullet> In the long-term, management actions will seek to create 
        conditions for manageable, planned and unplanned ignitions to 
        meet multiple objectives, such as wildland fire for resource 
        benefit to safely occur in mid to higher elevations.
  <bullet> Forest management should encourage a sustainable and 
        appropriately scaled forest product industry, for both 
        community and ecological benefits.
  <bullet> Sustainable and healthy community life is intrinsically 
        connected to the well being of diverse, resilient, and 
        naturally functioning forest landscapes.
  <bullet> Management activities will be designed to meet multiple 
        objectives, coordinate with supportive and/or participative 
        landowners or parties, and foster economic efficiency.

    Thank you once again Senator Udall for the opportunity to engage in 
this hearing today, and I look forward to further discussion on this 
issue as Coloradoans work together to meet the challenges of wildfire 
hazard reduction in our state.
    With my testimony I am submitting four exhibits* that specifically 
relate to the focus of hearing. All of the exhibits contain information 
that will be helpful as we move forward with solutions to these issues.
---------------------------------------------------------------------------
    * Exhibits have been retained in committee files.

    Senator Udall. Thanks, Mr. Buickerood.
    In that spirit, we've been joined by Nancy Fishering, who 
represents the Colorado Timber Industry Association.
    Nancy, thank you for taking the time to be here. We had a 
lot of battles back in the 20th century about what products and 
how we would harvest the resource in our forests. I've 
increasingly come to see the forest products and the timber 
industry as an important partner in maintaining and increasing 
forest health, and I think that's the spirit in which Mr. 
Buickerood commented. I look forward to your comments, and, 
again, thank you for being here. The floor is yours.

 STATEMENT OF NANCY FISHERING, VICE PRESIDENT, COLORADO TIMBER 
               INDUSTRY ASSOCIATION, MONTROSE, CO

    Ms. Fishering. Thank you, Senator Udall. Thank you for 
those comments. I think we were all tutored a little bit by Dr. 
Kaufman over the years, and we did a lot of learning together 
throughout the State of Colorado.
    I am pleased that today's hearing is focusing on solutions, 
but solutions, to me, is action. It means changes in policy and 
financing, in my view. So, therefore, most of what I'm going to 
say is going to have to do with where the rubber hits the road, 
which, to me, is the industry, the folks that are out there 
cutting the trees, hauling the trees, culling the biomass from 
the national forests and trying to figure out how to do it 
economically so we can treat more acres.
    Fire has always been present. We've been talking about it 
in our little tutorials, and it's important for Coloradoans to 
keep in mind. But my observation over the past 15 years is how 
huge the challenge has become for the State of Colorado. Mike 
King talked about 4 million acres. That was one small part of 
it. It's close to 7 million or 8 million acres in Colorado if 
you added all the bark beetles, all the fire acres, and we only 
have 22.6 million forested acres. It has become a huge thing in 
the State of Colorado.
    So we are a poster child of these issues. So much of it is 
managed by the Forest Service. We've got 68 percent of the 
lands in some sort of public management, most of that in the 
U.S. Forest Service. We have a big problem, as you mentioned, 
and we need big solutions. I've been dismayed over the years. 
I've been in the industry since the early 1990s.
    We haven't done big, huge policy changes yet. We keep 
tinkering and tinkering and tinkering, and I think it's to the 
point that, hopefully, after this year, we actually grab it, 
figure out the finances, get the right people at the table, and 
make some of these policy changes. So I do believe that we 
might have legislation, but I think some of it ties the hands 
of our public lands managers. I work closely with them. I serve 
on collaboratives. We need to take the handcuffs off. We have 
big problems.
    Nationally, we have 65 million to 82 million acres that are 
in need of some type of restoration across the whole United 
States. Colorado isn't the whole story. Of those, the experts 
on the ground have said some 12 million acres need some sort of 
mechanical treatment.
    Last year, we treated 195,000 acres across the whole United 
States and all the national forests. That means it would take 
64 years to get through a treatment cycle. Something needs to 
change. The cost paid by the city of Colorado Springs is way 
too great. So what are we going to do differently going 
forward?
    I think the Forest Service has to have as their highest 
priority--just cut to the chase--forest health is key for 
recreation, for so many other uses in our national forests. I 
think sometimes it gets lost in all the different programs that 
we throw at the Forest Service and say, ``Get these done, 
too.'' We've got to figure out our highest priority.
    Forest products companies will not invest in Colorado. We 
will not grab the capacity that we spoke of that we need unless 
we have a reliable supply for the long term. Then we get into 
these little conversations between 100 feet from a home, back 
country, Western Slope, Front Range. We have got to figure out 
a way that prioritizes it in a way that doesn't eliminate the 
industry.
    The industry--what that allows you to do is take trees off 
that we pay for. The industry that--by the timber sale, we 
actually pay into the Treasury. We don't just get paid to 
operate. The more we can pay into the Treasury, the more acres 
you're going to get treated. We've got to figure out that sweet 
spot there.
    The Forest Service must look for efficiencies in every 
timber management project. I don't care what kind it is. 
Because we know at the end of almost every project we see, 
we've left out acres, we've left out trees, we've tried to be 
careful, we've tried to be too careful. I would argue that 
across the United States, we would be astounded at how many of 
those acres could not mitigate a forest fire of the scale we're 
seeing today, as Merrill Kaufman explained.
    We need to look at the reorganization of the Forest 
Service. Where are the staff? Are we spending too much money in 
regional offices, Washington offices? The money needs to go to 
the ground. I believe that we still have analysis paralysis. We 
say that the laws are good. We've had 3 Forest Service chiefs 
go on record that it doesn't work. We're tying them in the 
Gordian knot that Mike King spoke of. We need to fix that. How 
long can we talk about it? We've been talking about it as long 
as I've been in the industry.
    NEPA came out last year--the Council on Environmental 
Quality said no NEPA document needs to be over 150 pages long, 
or 10 to 12 pages long. I challenge you to find one that short. 
We need to stop spending the money--quite the amount of money, 
but the analysis is important. NEPA is very important. 
Environmental protection is important, but we are spending way 
too many resources on that, in my view.
    Then I think we've never really acknowledged that the 40 
million or 73 million acres that we have identified across the 
West--we're just the 6.6 million acres of that 40 million to 73 
million acres of bark beetle. No one has declared an emergency 
situation and used NEPA to get out there and do some broad 
scale stuff. I think that there's room within our existing 
legislation. I agree. But we need to be using it and thinking 
outside the box.
    We need to look at our Lynx Amendments. We're now doing 
sage grass planning. Every time we plan a new initiative, we 
tie the hands of our land managers. You slow down the process. 
The loggers that are working on the ground can't work this day 
and this day, and you have to carve out this time for this 
project and this project. We are in a hurry. Sixty-four years 
is too long to fix the problem. We have gotten biomass studies 
that for every ton we take, there's 18 new tons coming on at 
the same time. We are not at all keeping up with the scale of 
the problem.
    Last is funding. I put it last, but I think it's most 
important. But I do recognize we have a funding crisis at the 
State level, at the municipal level, at the Federal level, but 
is it key. Colorado is the second lowest funded region in the 
country. For the most part, for as long as I've been in the 
industry, they say, ``Use your existing resources. Here's $40 
million.'' But then they cut us $20 million over here. When you 
are the second lowest funded region, which is Colorado, 
Wyoming, and South Dakota, you can't do it from your existing 
budgets.
    Bottom line, we have needed every bit of your leadership, 
and I know you've been working nonstop on this issue. You've 
been trying to get authority for more money just for bark 
beetle. But that's essential. Thank you so much for all the 
work and attention, Senator Udall, that you've put, personally, 
on that issue.
    So I'm going to cut myself off, because I know I'm in the 
red zone. But I am going to say two more things.
    Senator Udall. There's a red zone and there's the red zone.
    Ms. Fishering. I know. I know. Because it might not come up 
again, we do have a web site for the Colorado Timber Industry 
Association. It's going to be so important for your defensible 
space--how to choose a logger that can do it safely. That's the 
next hurdle that you deal with after a fire, and you need to 
know that kind of information. You can get it from the Colorado 
Timber Industry web site.
    The smoke that we're seeing around Colorado Springs right 
now--there are fires happening right now. It's not just 
Colorado. The smoke we're seeing today is from California and 
Montana. It's all over the West. We've got to figure out a way 
to cut to the chase, to bring down the cost so you can treat 
more acres. My argument is you're going to have to marry your 
WUI treatments with some back country treatments, and back 
country treatments are going to protect your electric grid.
    The entire eastern United States requires some of the power 
grid that goes over our national forests. Eighteen downriver 
States use our watersheds. Those watersheds up there need as 
much protection as springs and reservoirs outside of Colorado 
Springs. So I'm saying that there's some sweet spots. We can 
get some real saw timber that will keep an industry alive and 
bring down the cost of biomass removal.
    I'm all for this hearing. Thank you so much for having me.
    [The prepared statement of Ms. Fishering follows:]

Prepared Statement of Nancy Fishering, Vice President, Colorado Timber 
                   Industry Association, Montrose, CO
    Thank you Chairman Bingaman, Senator Udall and Committee Members. 
Thank you for the opportunity to present the perspective held by the 
forest products companies in Colorado regarding wildfires in our 
forests and practices to improve the long-term health of our forests. I 
am pleased that today's hearing is focused on solutions which in my 
mind equates to action. ``Lessons learned'' are important only if they 
translate into policy change and implementation. I welcome your efforts 
to make this happen.
    Fire has always been present in Colorado's forest landscapes, but 
started to escalate as a major concern in the mid-1990s. The scale and 
intensity of fires over the past 15 years has increasingly placed lives 
and property at great risk as evidenced in the recent Fourmile Canyon 
Fire near Boulder, the High Park Fire adjacent to Ft. Collins, the 
Waldo Fire here in Colorado Springs, and numerous smaller fires along 
the Front Range as well as the Western Slope. The following chart* 
displays this growing issue in our forests, and we note that this risk 
affects all land ownerships. Cumulatively nearly 1 million acres have 
burned in Colorado during this time span.
---------------------------------------------------------------------------
    * Chart has been retained in committee files.
---------------------------------------------------------------------------
    Simultaneously, during the same 15 years, 'Colorado's forests have 
been under siege by a variety of insect epidemics, including:.

  <bullet> 6.6 million acres affected by bark beetles (all beetles) 
        since 1996
  <bullet> 3.1 million acres affected by the mountain pine beetle alone

    Keep in mind that Colorado has 22.6 million acres of forestland, of 
which 68% is owned and managed by the federal government, with 72% of 
those federal lands managed by the US Forest Service. Private lands 
account for 28%, with the State and municipalities a small 4%. Putting 
all those numbers in context, over 1/3 of Colorado's forested landscape 
have significant forest health issues. Cumulatively, these issues: 1) 
have affected public health and safety, 2) can threaten the water 
supply for Colorado and the other 18 downstream states dependent on our 
headwaters, 3) can threaten the electric grid that transverses the 
Rocky Mountains, and 4) affects all uses and users--recreation, timber, 
grazing, wildlife, and the people who live, work and play in our 
forests. Our possible remedies and solutions are largely tied to the 
entities having legal jurisdiction of our forests.
    The point of this summary is to acknowledge the sheer scale of 
forest health issues that challenge this special state (and many other 
states as well). There is noquestion that the proactive responses 
implemented by the various entities have not been on anything close to 
a comparable scale. Big problems require big solutions. Unfortunately, 
my observation is that big solutions for Colorado's forest health 
issues are inhibited by old style management paradigms and conflicting 
laws passed in times of other forest conditions. I believe we have a 
problem with bureaucracy and case law, and policies and financial 
directions that were built over many years for another time. The very 
best efforts by the folks who work in these agencies cannot meet the 
new challenges posed by Mother Nature unless we change or enhance the 
tools. Again, my observation is that the public and many in Congress 
agree that forestry work is important and that it needs to be done in a 
reasonable amount of time, and especially now, at a reasonable cost.
    The Colorado forest products companies have been significantly 
impacted and integrally involved in working on forest health projects 
and have identified both barriers and potential solutions for moving 
forward. (The picture* below is a mitigation project completed by 
Morgan Timber Products that successfully protected property in the 2012 
High Park fire.)
---------------------------------------------------------------------------
    * Photo has been retained in committee files.
---------------------------------------------------------------------------
    This input is nothing new. . . sadly many of these ideas were 
discussed after Colorado's largest fire year in 2002, and some were re-
stated as we addressed the escalating bark beetle epidemic. One can 
only hope that these past two years of large scale events in Colorado, 
New Mexico, Arizona and other western states will bring us to the point 
that you can garner the bi-partisan support to adopt policies and 
regulations that fit the times.
    Now I will share some forest product company suggestions.
    These recommendations include:

          1. The Forest Service and USDA, from the top down, need to 
        make the health of our national forests their highest 
        priority--not just the words, but also their actions.--The 
        Forest Service has so many competing programs, constituencies, 
        and initiatives that forest health gets lost in the priorities 
        and budgeting.
          2. Reliability of supply is essential for the economic 
        solvency of the forest products companies.--Colorado's forest 
        products companies are more heavily dependent on the national 
        forests for supplies of forest products than are our 
        counterparts in most other western states. The flat or 
        declining budgets result in uncertainty, missed opportunities, 
        swings in funding priorities, and therefore more uncertainty in 
        the supply of timber which is essential to maintain an 
        industry. Several options are for the Forest Service to 
        evaluate the trade-offs of providing for every program 
        currently performed in their agency, and reducing staffing and 
        costs of the Regional and Washington Offices
          3. Efficiencies need to be found in every timber management 
        project.--This concept would achieve treating more acres at a 
        reasonable cost by maximizing sawlog-quality material in every 
        single timber project from conventional timber sale contracts, 
        stewardship contracts, service contracts, and Indefinite 
        Duration Indefinite Quality (IDIQ) contracts. The forest 
        processors and loggers have unavoidable costs and break-even 
        points. We are not a high margin business sector, and sawtimber 
        is essential to our existence.

          Myriad issues exist which drive up costs and drive down 
        management acres. To name a few:

  <bullet> multiple restrictions on operating seasons;
  <bullet> delays in new contract offers which results in skewed 
        appraisals/ timber costs since up to 49% of timber sales are 
        offered during summer construction seasons when lumber costs 
        are highest;
  <bullet> inflexible financial clauses which place the costs and risk 
        on business rather than shared risk between contractual 
        parties;
  <bullet> road packages that are too costly in today's economy; and
  <bullet> maintaining a balance between service contracts (FS pays to 
        manage) and timber sale contracts.

          Many foresters who work for the forest products companies, 
        and some who work within the agencies, and some in academia 
        have concerns that the myriad design compromises within forest 
        management projects are resulting in final projects that do NOT 
        meet the original project objectives. We may find that the 
        final treatments are no longer effective enough to mitigate 
        fire risk or ultimately improve forest health. We rarely hear 
        this conclusion in public (one example is with the Fourmile 
        Canyon Fire Report discussed in this hearing), but we can no 
        longer afford to sweep this issue aside. The challenges are too 
        great and ineffective treatments are simply too costly.
          4. The Forest Service needs help with ``analysis paralysis'' 
        or the ``process predicament'' and the National Environmental 
        Protection Act (NEPA).--NEPA is a valuable process but has 
        become too costly and time consuming. Thus far three former 
        Forest Service Chiefs have raised this point. We saw NEPA used 
        efficiently in the aftermath of Hurricane Katrina, yet we 
        haven't implemented complementary fixes. In the fire prone 
        areas and insect threatened forests, why not put together a 10-
        year program of NEPA-cleared work? We need to stop holding 
        every forest management project in those non-controversial 
        acres to the same standard as you would if you were entering 
        roadless.
          Last year, the Council on Environmental Quality published a 
        draft document titled ``Improving the Process for Preparing 
        Efficient and Timely Environmental Reviews under the NEPA''. In 
        that document, the CEQ reiterated previously issued CEQ 
        Guidance encouraging agencies to focus NEPA documents on 
        environmental analysis, not producing an encyclopedia of all 
        applicable information, and specifically re-iterated that FEISs 
        should not exceed 150 pages and EAs should not exceed 10-15 
        pages. I won't mention specific Forests or projects, but trust 
        me, you don't need to look very hard to find FEISs and EAs that 
        significantly exceed those page recommendations.
          5. Acknowledge that a 40 or 73 million acre beetle outbreak 
        is an emergency and use emergency authority under NEPA to do 
        something about it.--If every NEPA project implements every 
        possible acre, the result would be more trees per acre (paid 
        for by industry and not taxpayers) and then more acres treated 
        at less cost. The essential task of removing biomass simply 
        costs time and money. In a recent biomass conference an 
        interested statistic was presented that the Colorado ratio of 
        net forest growth to removal (in green tons) is 18.2. This 
        means that for every 18.2 tons of new growth, we are only 
        removing one ton of wood from the forest. We are losing the 
        battle of thinning the forests to reduce overstocking and fuels 
        build-up. Colorado had the highest biomass ratios in any 
        western state, or Colorado has one of the biggest jobs to keep 
        up with necessary fuels and forest health treatments. Adding 
        sawtimber components (which has a higher value for processing) 
        would help to subsidize, and therefore, increase the treatment 
        rate of removing small diameter trees and fuels that exacerbate 
        forest fires.
          6. Review and reconsider the direction in the Southern 
        Rockies Lynx Amendments as part of their forest plan 
        revisions.--This doesn't require legislation. In fact, the 
        Forest Service committed to do just that in their SRLA Record 
        of Decision, but they now appear to be reneging on that 
        commitment. That decision has unduly and unnecessarily 
        encumbered management of suited timberlands, increased Forest 
        Service costs, and reduced the effectiveness of their forest 
        management. The Endangered Species Act requires the Forest 
        Service a) to not jeopardize listed species and b) to not 
        adversely modify critical habitat, neither of which justify a 
        decision to manage 54% of the national forests in Colorado for 
        lynx habitat.
          7. Last, and of great importance is providing adequate 
        funding to meet the scale of the challenge.--This item comes 
        last in deference to the fiscal challenges facing the country, 
        but the reality is that significant progress cannot occur 
        without an infusion of dollars. Somehow, we recognize that fact 
        in extraordinary events like drought, hurricanes, and floods. 
        There has never been an adequate, realistic economic response 
        to address the unprecedented events happening in our forests 
        and wildland urban interface. Asking the Forest Service to meet 
        these new issues from their existing budgets is an impossible 
        task. In actuality, the budget belies the words about forest 
        health priorities and undermines the Forest Service mission 
        ``to sustain the health, diversity, and productivity of the 
        nation's forests and grasslands to meet the needs of present 
        and future generations.''
          The final suggestion is cautionary and regards winners and 
        losers. Operating under the numerous constraints discussed 
        above can lead to ideas and solutions that pose new and 
        different problems. Throughout Colorado or throughout the USFS 
        system, new areas are faced with fire or insect pressure in 
        ever increasing geographical areas. In Colorado, one year it is 
        on the Front Range, one year in the ski country, and one year 
        SW Colorado. In 2012 it was first one incident in Larimer 
        County, then one incident in Montezuma County, multiple fires 
        in other counties, and the major fire in El Paso County. 
        Limited resources lead to incredible competition between 
        national forests, states, and among counties and even 
        municipalities. I would urge everyone not to lose sight of the 
        big picture, both the near term threats and the mid-term 
        threats. We need to find long-term policy improvements that 
        increase our treatment capacity across the vast forested 
        landscapes without sacrificing one area to treat another.

    I'd like to make it clear that I consider these ideas to be 
systemic. I have watched fine people in my local districts, the 
Regional Office, and the Washington office of the FS and the USDA 
search and find directives that can address emerging problems. We 
benefited from several solutions that were specific to issues rather 
than systemic such as the recent provision for mutual cancellation of 
timber sales. The industry was thankful, especially to Senator Udall, 
because the remedies were essential for some companies to survive the 
great recession, but achieving that result took far more work than it 
should have. Many of barriers receive attention and are works in 
progress with the Forest Service, but the patchwork of old laws and new 
laws and shifting priorities create a huge challenge and uncertainty 
for Forest Service staff as well as our industry. Since the early 
2000s, the Colorado Congressional delegation and other members of 
Congress have been actively engaged on many of these fronts and have 
supported numerous pieces of legislation to assist this unwieldy 
system.
    (Examples include Senator Udall's forest health bill, Senator 
Bingaman's Community Forestry Landscape Restoration, Senator Tester's 
Montana approach, and Senator Wyden's Oregon Forest bill. 
Simultaneously we receive important new studies: `The True Cost of 
Wildfire in the Western US, 2009 by the Western Forest Leadership 
Coalition, ``The Process Predicament, 2002 from the USFS, ``Review of 
the Forest Service Response: The Bark Beetle Outbreak in N. Colorado 
and S. Wyoming 2011 requested by Senator Udall from the USFS, The 
Conference Report for HR 2055, which included the FY 2012 Forest 
Service appropriations, stated ``The Forest Service is directed to 
improve the health and resilience of national forests and through these 
efforts, work to achieve 3 billion board feet of timber sold.'' 
Unfortunately, the Forest Service appears unable to achieve even this 
modest increase in timber outputs as a step in accomplishing more on-
the-ground management, and the national target to the ``field'' of only 
2.6 billion board feet.)
    In spite of all this effort, we have not successfully passed many 
good ideas. We all want a system that is rational, environmentally 
sound and one that is economically viable and sustainable. Our fear is 
that the patchwork approach that adds laws while not removing 
antiquated processes designed for a different time.
    I am honored to testify, and I would be delighted to work with you 
to give additional detail to quickly enhance an efficient, 
environmentally sound forest health strategy.

    Senator Udall. Thank you, Ms. Fishering. Thanks for 
challenging the policymakers, the public, all the stakeholder 
groups. I have to suggest that I think the only red zone we're 
excited about as Coloradoans is when the Denver Broncos are in 
the red zone, and the other red zones we want to avoid if at 
all possible.
    [Laughter.]
    I was thinking about your comment about NEPA. I think we'd 
like to turn those trees into less paper and more energy crops. 
Maybe that's another way to think about it. But thank you for 
those comments.
    Our next witness is Jim Hubbard. I'm going to correct for 
the record--Jim did head the Colorado State Forest Service ably 
and with passion. The U.S. Forest Service noted that experience 
and his record. He now works as the United States Forest 
Service Deputy Chief for State and Private Forestry.
    He's been joined by Jack Cohen, who is a research 
scientist, who works at the U.S. Forest Service Rocky Mountain 
Research Station. Jack was a key director of the Four Mile 
Canyon fire study. Jack, because of a rule, is not listed as a 
formal witness. United States Forest Service line staff are not 
permitted to serve as witnesses under the definition of a 
witness. But he's here because we want to hear from him. I know 
Jim and Jack are going to team up to share their point of view 
with us.
    So, Jim and Jack, welcome. Jim, the floor is yours.

  STATEMENT OF JAMES HUBBARD, DEPUTY CHIEF, STATE AND PRIVATE 
      FORESTRY, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Hubbard. Thank you, Senator.
    The State and Private Forestry part of the Forest Service 
does include the fire program, and so that's part of my being 
here.
    Nancy, I'm glad you cut yourself off. I wasn't about to.
    [Laughter.]
    The Forest Service would also like to express our 
condolences to the losses. We know those are serious. We deal 
with them a lot in a lot of places, and we never like it when 
we have to face those kinds of losses. We offer our 
condolences.
    I'm going to talk more broadly and set some context and 
talk more about some of the Forest Service activities in the 
fire program across the West with some specifics, but, 
hopefully, the questions will get us to more. Western 
wildfires--on a 10-year average, we deal with 42,000 of them. 
They burn about 3 million acres. That's growing.
    It's getting to be more of a problem because of the 
prolonged drought, because of the high temperatures, because of 
the low humidities. That results in lower fuel moisture, higher 
fire intensity when we try to deal with fire, uncharacteristic 
behavior of fire, and seasons that start earlier and last 
longer. After a fire, that burn severity on the ground is more 
than we're used to, so it makes the restoration more difficult.
    Those aren't just seasonal anomalies. That's a trend that 
we've been facing for some time, and we expect it to be with us 
for some time. Typically, our Western fire season begins in 
Arizona and New Mexico, although we've had a little bit of 
trouble with Oklahoma and Texas lately, and moves up into 
Colorado. Currently, it's in Utah, Montana, Idaho, and 
California. We have 18,000 firefighters deployed today, 
fighting 70 uncontained large fires.
    So those seasons have become busy, and I expect they will 
remain busy and in large part due to the condition of the 
vegetation in the West. Colorado is no stranger to this. As 
you've heard, we've experienced in Colorado a lot of large 
fires, damaging fires, especially along the Front Range. If you 
try to take the footprint of those fires that have already 
occurred and put it anywhere else along the Front Range, it 
doesn't fit without affecting property and sometimes lives. So 
it is a major issue.
    Our response and our mitigation priorities are definitely 
in the interface and something that we have to pay even more 
attention to. We'll continue with aggressive initial attack, 
and our priorities will be life and property. But when wind 
comes along in combination with all those other factors, we 
quickly turn to evacuations. There's not a lot of firefighting 
that you can accomplish in wind events, and you get people out 
of the way. In Waldo, it was 32,000 people out of the way. Most 
of our losses on those major fires come during the periods of 
those wind events.
    We constantly evaluate what happens with our fires, what 
goes on in an incident, what actions need to be taken, what the 
conditions are that we are facing. That translates into 
response evaluation and interagency deployment. The Forest 
Service is heavily involved, but by no means the only ones, and 
never the only ones. It's always an interagency response which 
has to be well coordinated if it's going to be effective.
    We constantly evaluate from those incidents the fire 
behavior to see what we're learning new because of those 
changed conditions. Within the communities, it becomes a 
mitigation and a prevention activity--what else we can do to 
prepare a community when fire comes. On the landscape, it's how 
do we reduce those hazardous fuels that pose the risk to life 
and property.
    We have 70 million acres nationally, a little over 70 
million acres, that we consider a forest at high risk to this 
kind of fire behavior. So, yes, Mike King is right. We have to 
prioritize. We do that on a basis of fire occurrence, 
vegetative condition, values at risk, and cross-boundary 
actions that can be taken. We don't do very well when we just 
come up to a boundary and stop. It works a whole lot better 
when we ignore those boundaries and work across them. So it's a 
matter of where we need to make some change that makes a 
difference, and it's a matter of where we can make a change 
that makes a difference.
    I'll leave you with 3 thoughts. The critical area of 
priorities, including the home ignition zones that Jack is 
going to talk a little bit about and more this evening, are 
priorities that we really have to place a high emphasis on. The 
policy tools that help us get more done have been mentioned, 
Good Neighbor Authority and stewardship contracting. Good 
Neighbor allows us to cross those boundaries. Stewardship 
contracting allows us to get more done for less cost.
    Then maybe most important is this idea of local agreements, 
local agreements that involve the home owners, the land owners, 
the local government, the State, the Federal--as the Chancellor 
said, the coming together. We find that coming together happens 
often and strongly during an emergency event. It's harder to 
maintain after one, because that's rolling up your sleeves and 
doing a whole lot of work together, and it's not necessarily 
the same work in any two places. It's similar, but it's not the 
same. Those local modifications are important.
    So we look at fire response, we look at community 
protection, and we look at landscape treatment. There aren't 
many certainties in this business, and the conditions I would 
offer you will remain difficult in the West. But some actions 
that we take can make a difference and improve our chances.
    Dr. Cohen is going to talk to you just a minute--give you a 
preview, maybe, of this evening and a little bit about this 
home ignition zone and the importance of it.
    Jack.
    Mr. Cohen. Thank you, Jim.
    Thank you, Senator Udall.
    Actually, we need slides. There we go. I'm here to provide 
some information and some perspectives with regard to houses 
burning down during wildfires. In the next slide and 
thereafter, I'm going to give you a sense of some of the 
research examinations that I've done that reveal most homes 
destroyed during extreme wildfires are not ignited directly by 
the big flames of intensely burning wildfires.
    In this next slide, it shows you an example of what used to 
be 4 houses, totally destroyed, surrounded by unconsumed and 
green vegetation. What that tells us is that something other 
than the intense wildfire, which, by the way, never actually 
entered this particular community, can destroy the houses.
    So how is that occurring? In the next slide, intensely 
burning wildfires commonly loft burning embers, what we call 
firebrands, to initiate ignitions--in the next slide--directly 
on homes, where we--and in this particular case, where we have 
highly vulnerable flammable wood roofs that result--in the next 
slide--in total destruction surrounded by unconsumed 
vegetation. Note in that photo that we have a highly involved 
home surrounded by--well, this is southern California, so those 
are eucalyptus trees, gasoline on a stick. Or they ignite 
within the community fires that spread potentially continuously 
to contact the structure.
    So now I have a video for you that shows you a 
demonstration experiment that we did in South Carolina, and 
we'll go ahead and roll it. What we're seeing here is a house 
being exposed to a firebrand blizzard, which would be 
reasonable for short main spotting, which would be on the order 
of a few hundred yards to less than a quarter of a mile, during 
a very high wind event with canopy fire, crown fires, burning 
upwind.
    As you're watching real time, there are pine needles along 
the base of the front of the structure and bark mulch around 
that reentrant corner. There are pine needles in the gutters 
and in the valley of the roof. What we see are the ignitions 
that are occurring without any flame exposure whatsoever. You 
can see that because of all the personnel that are standing 
there between the exposure and the structure. So the only fire 
that's going on is ignited by firebrands, which then burns and 
potentially can ignite that structure.
    Some of the gutters, the ones that don't collapse, are 
metal. The ones that do are vinyl. There is vinyl siding on the 
right side of the structure on the front, fiber cement on the 
left side, and composition--what we call comp board, 
manufactured wood comp board, on that reentrant corner. 
Interestingly enough, the pine needles burning in the valley of 
the roof, which is composition shingles, is not a problem with 
regard to igniting the structure.
    Here we have heavy involvement of the structure, which we 
ended up suppressing. What you saw there was the ignition of 
the structure without protection to its total destruction in 
less than 5 minutes. It always doesn't happen that way, 
however.
    So what I've found is that, given extreme wildfire 
behavior, the home characteristics in relation to the area 
surrounding the home within about 100 feet principally 
determine the potential for the home ignitions. This is what I 
call the home ignition zone. The idea here is to address the 
ignition resistance of the home such that an exposure such as 
this can result in something like this. This is the same home 
afterwards.
    Next slide. This is the idea. This house survived without 
any significant protection.
    So in the next slide, the point is that we have the 
opportunity--and let me emphasize--we have the opportunity to 
prevent at least the disastrous home destruction during a 
wildfire. It's one of the issues we have with wildfires, but we 
have the ability to deal with this problem if we so choose.
    One of the huge issues, one of the huge obstacles, as I see 
it, is that in the next slide, the home ignition zone, this 
area of the house and its immediate surroundings within 100 
feet, is largely privately owned. So the point I make in the 
next slide is that without home owners taking the 
responsibility commensurate with the authority that they have, 
because it's private land, private ownership, we cannot deal 
with this problem. Home owners have to become engaged. That's 
it.
    Thank you.
    Senator Udall. Thank you, Jack.
    Thank you, Jim.
    [The prepared statement of Mr. Hubbard follows:]

 Prepared Statement of James Hubbard, Deputy Chief, State and Private 
          Forestry, Forest Service, Department of Agriculture
    Senator Udall, thank you for the opportunity to come before the 
Committee. I am James Hubbard, Deputy Chief for State and Private 
Forestry of the United States Forest Service. With me today is Jack 
Cohen, Research Physical Scientist from the Rocky Mountain Research 
Station's Fire Sciences Laboratory in Missoula, Montana. I want to 
extend my deepest condolences on behalf of the Forest Service to the 
families of those who lost lives, property or were otherwise affected 
during the recent wildfires which have impacted Colorado and other 
states throughout this fire season.
    I am here before you today to discuss the recent Colorado 
wildfires, restoration efforts and what was learned as a result of 
these fires. Finally, I will discuss projections for future wildfire 
conditions and best practices that can improve forest health.
    The Southwest United States and the State of Colorado are currently 
in a severe drought condition. Snow pack during the 2011-2012 Winter 
was below the 25 percentile of normal snowfall. At the time of ignition 
of the High Park and Waldo fires, heavy and fine fuels were extremely 
dry--the result of extended periods of above average temperatures and 
below average moisture. In June and early July, record low fuel 
moistures, weather and topographic elements aligned to produce extreme 
fire behavior.
    The recent fires that have impacted the State of Colorado were 
unprecedented in their destruction of life, property and resources. At 
the peak of fire suppression efforts this summer in Colorado there were 
over 4,700 firefighters and support staff working in a coordinated 
interagency effort to suppress the fires. During the height of Waldo 
Canyon fire suppression activities, there were over 1,500 personnel 
assigned to the fire. Air resources committed in Colorado during that 
same time included 37 helicopters and10 large airtankers--including 4 
Air National Guard C-130 Modular Airborne Fire Fighting System (MAFFS) 
retardant planes. In total, over 470,000 gallons of retardant were 
delivered to the Waldo fire.
    As a contingency and in coordination with the United States Army at 
Fort Carson, basic firefighter training was initiated for over 400 
soldiers. The Forest Service worked closely with Federal Emergency 
Management Agency (FEMA), and other federal, state and local agencies 
to assure communities were supported to the highest degree possible. 
Additionally, the Forest Service remains committed to working with 
partners to coordinate restoration of impacted lands in Colorado.
                  fire recovery and mitigation efforts
    The Forest Service, along with the Natural Resource Conservation 
Service (NRCS), other Federal, State and local partners, began planning 
and implementing immediate recovery efforts to mitigate the impacts of 
fire affected lands. In the case of five Colorado wildland fires this 
year, including the High Park and the Waldo Canyon fires, Forest 
Service Burned Area Emergency Response (BAER) and NRCS Emergency 
Watershed Protection teams began planning and implementing emergency 
flood prevention on National Forest System and adjacent private lands 
before the fires were declared contained.
    BAER is a Forest Service emergency program for National Forest 
System lands that responds to imminent and unacceptable risks to people 
and resources that are triggered by changed conditions caused by fires. 
Common threats include excessive erosion, flooding, invasive plants and 
falling trees/rocks. The goal of the BAER program is to recognize these 
potential problems and, when possible, take immediate actions to 
minimize the damage. BAER treatments are completed for the purpose of 
preventing or minimizing additional damage. Emergency response actions, 
including treatments, are implemented immediately and for up one year 
after the fire.
    USDA's Natural Resources Conservation Service administers the 
Emergency Watershed Protection (EWP) Program on private, State, and 
tribal lands. Through EWP, assistance is provided for reducing threats 
to life or property, protection from flooding and soil erosion, and 
restoring a watershed's hydraulic capacity. EWP work typically includes 
removing debris from stream channels, road culverts, and bridges; 
reshaping and protecting eroded streambanks; correcting damaged 
drainage facilities; repairing levees and structures; reseeding damaged 
areas; and purchasing floodplain easements. Assistance is provided 
through a project sponsor, such as a State or unit of local government 
or Indian tribal organization.
    The Waldo Canyon BAER team began assessment of the 18,247 acres 
impacted by the fire on July 5, five days prior to the actual 
containment of the fire. The Forest Service joined with Natural 
Resource Conservation Service (NRCS), Federal Emergency Management 
Agency (FEMA), Army Corps of Engineers (ACOE), Colorado Springs 
Utilities and Colorado State Forest Service to share information and 
coordinate emergency response measures. The Forest Service has 
committed $5,087,000 to the emergency response efforts to complete over 
3000 acres of aerial mulching, road and trail storm protection 
mitigation, closures and warning signs, invasive detection/treatment, 
shooting range hazmat stabilization, and recreation site safety 
measures on National Forest System lands.
    The USDA Natural Resources Conservation Service received a verbal 
request for EWP assistance from the Colorado Springs Utilities Board, 
which owns and operates reservoirs within the burn area that provide a 
significant portion of drinking water for Colorado Springs.
    The Forest Service response to the High Park fire was similar. 
Approximately 50% of the total High Park Fire acreage was on National 
Forest System lands. An interagency BAER team was formally established 
and started field evaluations in safe areas. To date, nearly $7,000,000 
has been approved to implement the High Park Fire BAER assessment and 
recommendations on National Forest System lands. Projects include 
aerial straw mulching on approximately 5,000 acres and wood shred 
mulching on approximately 600 acres, road storm proofing, closures, 
trail stabilization, warning signs and invasive plant prevention 
treatment.
    The USDA Natural Resources Conservation Service also responded to 
the High Park Fire. NRCS team on the ground in Soldier Canyon 
identified potential treatments to protect Horsetooth Reservoir and all 
of the Colorado Big Thompson Project facilities. NRCS personnel have 
also reached out to Larimer County, Northern Colorado Water Conservancy 
District, City of Fort Collins, and Soldier Canyon Water Treatment 
Plant for potential EWP funding.
    The Forest Service and NRCS remain committed to providing the 
resources necessary to meet emergency response to the wildfires that 
occurred on National Forest System, private, state and tribal lands in 
Colorado and throughout the west. Additionally, the Forest Service will 
continue to closely coordinate with other Federal, State and local 
partners to assure that we complement our respective efforts.
                      fourmile canyon fire report
    The Fourmile Canyon Fire study was conducted by a team of Rocky 
Mountain Research Station scientists at Senator Udall's request, in an 
effort to learn from this incident and focus on reducing the risk of 
future catastrophic fires to communities in the wildland urban 
interface (WUI). Understanding how the Fourmile Canyon Fire burned, the 
damage it caused, and how people and agencies responded is an important 
way for us to reduce the destructive results of future wildfires on the 
Front Range.
    Without widespread fuel reduction on public and private lands, 
ignitions that occur during extreme weather conditions are now capable 
of burning tens of miles in a matter of one or two days. The Fourmile 
Canyon fire, Waldo Canyon fire, and High Park fire are just the latest 
examples. Decades of research has demonstrated fuel treatments can be 
extremely effective at changing fire behavior, limiting ecological and 
watershed damage, and improving suppression effectiveness even under 
extreme weather conditions.
    During wildland fire events, public and firefighter safety is the 
highest priority. While property losses experienced during the Fourmile 
Canyon Fire were tragic, there was no loss of life thanks to an 
efficient, coordinated emergency response. There are no guarantees when 
it comes to protecting homes from wildfires, but we have opportunities 
to reduce home ignition potential by focusing efforts at the home and 
its immediate surroundings (within the home ignition zone, HIZ) to 
increase chances homes will survive without necessarily controlling 
extreme wildfire behavior.
    Firebrands/burning embers directly igniting homes and surface fire 
spreading to contact homes were largely responsible for home 
destruction in the Fourmile Canyon fire. This serves as a reminder that 
reducing home ignition potential is more than a one-time effort of 
thinning dense stands of trees and other large fuels--it also requires 
regular maintenance like removing flammable materials adjacent to the 
home, keeping tall grasses mowed, removing dead vegetation and pruning 
shrubs, and clearing debris from roofs and gutters.
    Homeowners have the opportunity to significantly reduce the 
potential for wildland-urban interface disasters by creating and 
maintaining a HIZ. A HIZ includes a home's design, materials and 
removal of flammable debris in relation to its immediate surroundings 
within 100 feet. Although home ignition potential is most effectively 
reduced within the HIZ, in some vegetation types fuel treatments beyond 
the HIZ can affect fire behavior by diminishing the intensity and 
slowing the spread of wildfires. This can provide more options for 
residents to evacuate safely during a wildfire, and enhance firefighter 
safety.
         improving forest health and future wildfire conditions
    Increasing the pace of restoration of the Nation's forests is 
critically needed to address a variety of threats--including fire, 
climate change, and bark beetle infestation, among others--for the 
health of our forest ecosystems and watersheds. The Forest Service is 
engaged in a broad range of actions designed to restore the health of 
the lands and waters of the National Forest System.
    There is no one correct strategy for reducing risk to, and 
protecting communities and firefighters from wildfires. While reducing 
fuels through prescribed burning or mechanical treatment might be most 
effective in some areas of the country, in others it may be more 
effective to focus on landowner awareness, preventing ignitions and 
preparing communities for wildfire.
    Through the Accelerated Restoration Strategy, the Forest Service is 
responding by restoring and working to maintain the functions and 
processes characteristic of healthy, resilient forests and watersheds 
not only in Colorado, but nationwide. There are between 65-82 million 
acres of National Forest System lands in need of restoration. In 2011, 
restoration treatments (watershed, forest and wildlife habitat 
restoration, and hazardous fuels reduction) were accomplished on 3.7 
million acres. Components of the Accelerated Restoration Strategy 
include a suite of programs and efforts to efficiently advance 
restoration efforts. Stewardship contracting, Good Neighbor Authority, 
the Bark Beetle Strategy, the Collaborative Forest Landscape 
Restoration Act, and the Cohesive Strategy are all tools the Forest 
Service has available to implement the Accelerated Restoration 
Strategy.
Stewardship Contracting
    This tool allows the Forest Service to acquire needed restoration 
services. Reauthorizing this authority and expanding the use of this 
tool is crucial to our ability to collaboratively restore landscapes at 
a reduced cost to the government by offsetting the value of the 
services received with the value of forest products removed pursuant to 
a single contract or agreement. In Fiscal Year 2011, 19% of all timber 
volume sold was under a stewardship contract and funded activities such 
as watershed and wildlife habitat improvement projects, and hazardous 
fuels reduction. In 2011, 208 contracts were awarded treating 189,000 
acres of hazardous fuels.
Good Neighbor Authority
    The Good Neighbor Authority was first authorized in 2000, 
responding to increased concern regarding densely stocked stands at 
risk from insect and wildland fires. The law authorizes the USDA Forest 
Service to use contracting procedures of the Colorado State Forest 
Service to conduct certain watershed restoration activities on National 
Forest System land when conducting similar activities on adjacent state 
or private land. In 2004, Utah and BLM received the Good Neighbor 
Authority. Federal and state officials who have used Good Neighbor 
Authority cited project efficiencies and enhanced federal-state 
cooperation as its key benefits.
Bark Beetle Strategy
    The Bark Beetle Strategy, developed in 2011, focuses management 
efforts on priority treatment areas to ensure human health and safety 
and to reduce hazardous fuel conditions. The mortality of conifer trees 
caused by the bark beetle has escalated in the last decade, affecting 
nearly 18 million acres of National Forest System lands. In Colorado, 
nearly 3.2 million acres of National Forest System lands have been 
infested with bark beetle. The Chief of the Forest Service has 
committed to spending $101.4 million on bark beetle work throughout the 
western regions in FY 2012. The Rocky Mountain Region's share is $33 
million.
    The Region has focused initial efforts on heavily impacted areas 
around the White River, Routt and Arapaho Roosevelt National Forests. 
We are prioritizing our forest health efforts across the entire region 
focusing on safety, resiliency and recovery. Within the bark beetle 
area, the Region has worked with partners to address threats to the 
infrastructure, including powerlines, roads and communities. For 
example, the Forest Service developed a large-scale powerline 
Environmental Impact Statement (EIS) which covers the three national 
forests most heavily impacted by beetle mortality. The Region remains 
committed to working closely with the powerline companies where they 
are interested in more aggressively treating the transmission 
corridors.
Collaborative Forest Landscape Restoration (CFLR)
    In fiscal year 2012, the Forest Service received the full $40 
million authorized by the CFLR Act. The Secretary funded ten new 
projects, in addition to the continued funding for ten projects 
selected in 2010. Three additional high priority collaborative projects 
were also funded from other appropriated FS funding. These 23 projects 
have demonstrated collaboration among stakeholders can facilitate 
large, landscape scale restoration, thereby improving forest health, 
reducing wildfire risk, restoring fire-adapted ecosystems, and 
increasing timber and biomass production from our national forests.
    The U.S. Forest Service reduced fire threats on more than 123,000 
acres of land under the Collaborative Forest Landscape Restoration 
Program nationwide in fiscal year 2011 as part of a larger effort to 
improve the health and resiliency of national forests.
    In its second year of funding, the Collaborative Forest Landscape 
Restoration Program also contributed $21 million to local economies 
through treatments which included prescribed burns and fuels thinning, 
producing 121 million board feet of lumber and 267,000 tons of woody 
biomass for bio-energy production on ten projects around the country. 
On three National Forests throughout Colorado, CFLR projects have 
reduced fire threats over 14,000 acres using mechanical thinning and 
prescribed fire.
National Cohesive Wildland Fire Management Strategy
    Annual fire suppression costs are significant for Federal, State 
and local governments and can exceed $2 billion for the Federal 
Government in severe fire seasons. In 2009, the escalating Federal fire 
suppression costs and adverse impacts to other Federal land management 
programs led Congress to pass the Federal Land Assistance, Management 
and Enhancement Act (FLAME Act), which authorized an additional funding 
source for Federal emergency wildland fire suppression. The FLAME Act 
required the development of the National Cohesive Wildland Fire 
Management Strategy for managing fire-prone landscapes and wildland 
fire across the Nation.
    The National Cohesive Wildland Fire Management Strategy has three 
major components:

          1) To restore and maintain landscapes.
          2) To develop fire-adapted communities.
          3) To use the most cost-effective and safest fire response.
Restoration
    The Forest Service is pursuing a number of policies and initiatives 
to increase the pace of forest restoration and management on the 
national forests and grasslands.
    Over the next three years, the Forest Service is also committed to 
increasing by 20 percent the number of forested acres being 
mechanically thinned. This will increase the number of acres and 
watersheds restored across the system, while supporting jobs and 
increasing annual forest products sales offered to 3 billion board 
feet, up from 2.4 billion board feet in 2011.
    Building public support for forest restoration and active-
management activities is critical. To this end, the Forest Service 
continues to collaborate with diverse stakeholders in developing 
restoration projects on National Forest System lands.
Fire-Adapted Residential Communities
    Homeowners and others are not powerless against wildfires. In fact, 
many studies have shown homeowners who take an active role such as 
clearing brush and debris away from structures are a vital component in 
slowing the spread of fire and protecting their property, as identified 
in the Fourmile Canyon report.
    The National Fire Protection Association's Firewise Communities 
program teaches homeowners, community leaders, planners, developers, 
firefighters and others about ways to protect people and property from 
wildfires. The Forest Service is a partner in this vital effort and 
others such as the Ready, Set, Go Program (International Association of 
Fire Chiefs). .
    In addition to urging homeowners to make their properties as safe 
as possible from wildfire, the intent of the Cohesive Strategy is to 
work through cross-jurisdictional partnerships with Tribes and other 
Federal, state and local governments before wildfires start. The 
agency's community partners have an array of tools at their disposal, 
including building external fuel buffers and internal safety zones, 
developing community wildfire protection plans (CWPP), supporting codes 
and ordinances, that address wildfire threats, using proven forest 
management and fuels mitigation techniques and joining cooperative fire 
agreements.
Wildfire Response
    The intent of the Cohesive Strategy is to conduct rigorous wildfire 
prevention across all jurisdictions. Most wildfires are human caused, 
and while the Forest Service will continue to fully suppress all human-
caused wildfires and actively promote fire prevention, firefighter and 
public safety are the highest priorities on all fires. Human safety and 
risk management guide all fire-management decisions and actions 
undertaken by agency fire managers. Wildfire-management strategies are 
based on many factors including risks to public and firefighter safety, 
type and condition of fuels, weather, land management plan directions, 
cultural and historic properties protection, and available firefighting 
assets. Strategies can change as conditions change. All wildfires have 
a suppression strategy to--at a minimum--protect life and public 
safety, but some fires will have additional management strategies to 
meet ecological objectives.
    The Forest Service responds vigorously to wildfire with an array of 
assets, which include more than 15,000 USDA and DOI firefighters (about 
70 percent from the Forest Service), up to 950 engines, 19 large 
airtankers, eight Modular Airborne Fire Fighting Systems, 34 heavy 
helicopters and 300 call-when-needed helicopters.
    The Forest Service has also awarded exclusive use contracts for 
seven ``Next Generation'' airtankers. Three will be operational in 2012 
and four in 2013. This is the first step in implementing the Large 
Airtanker Modernization Strategy, which was submitted to Congress in 
February 2012 and recommends 18 to 28 large airtankers.
    In addition, wildland fire managers use fire analysis tools 
developed by Forest Service Research and Development, such as fire 
behavior software, to model the probability of fire occurrence in a 
specific location. They can also help predict the spread and direction 
of a fire based on, among other things, the type of trees or other fuel 
for the fire and whether the fire is on the surface or in the tree 
crowns where a wildfire can quickly spread.
    The three main factors that influence fire behavior are fuel, 
weather and topography. Of the three elements that determine fire 
behavior, fuels represent the one element that can be adjusted to 
reduce the potential for extreme fire behavior. Whether by reducing 
heavy fuel loads in forests or by reducing the amount of fuel around 
homes and private property, fuels management is an effective approach 
for reducing risks to homes and structures.
    In 2006, the USDA Forest Service initiated a program to evaluate 
the effectiveness of prescribed fire and mechanical treatments designed 
to reduce the risk of wildfire. When a wildfire starts within or burns 
into a fuel treatment area, an assessment is conducted to evaluate the 
resulting impacts on fire behavior and fire suppression actions. In 
2011, the Forest Service made the effectiveness assessment mandatory 
whenever a wildfire impacted a previously treated area.
    Since 2006, over 1,000 assessments have been completed. Data has 
shown fuel treatments are effective in reducing both the cost and 
damage from wildfires. The summary of data from these administrative 
studies indicates over 90% of fuel reduction treatments changed fire 
behavior and directly led to control of the wildfire.
    In summary, wildfires know no boundaries and we must work within an 
all-lands context to manage for and respond to wildfires. Additionally, 
we will continue to provide assistance to communities that have been or 
may be threatened by wildfire. As wildland fires have impacted lands 
across the Country, we recognize the interest, urgency and willingness 
of many members of Congress to provide tools for the Forest Service to 
apply restoration principles.

    Thanks to the panel for some very enlightening and 
important comments. I'd like to acknowledge some of the other 
experts and elected officials who are in the audience. I'm sure 
I will miss some of you. If you will let me know if I've missed 
you, we will ensure that you are acknowledged by the end of the 
hearing.
    But I see Commissioner Dan Gibbs from Summit County here, 
former State Senator Gibbs, who lives in the Frisco-
Breckenridge area. Those of you who have been to the Frisco-
Breckenridge area know that there are a few bark beetle killed 
trees in that county. Dan has been a leader on this topic for 
many years.
    Sitting next to him is Commissioner Clark, a long-term 
friend of mine who served El Paso County well and I know still 
is feeling the effects of what happened just a few weeks ago 
here.
    So it's great to see you, Sallie.
    I think Kyle Hybl is here--CU Regent--right here, yes. OK. 
You didn't move around on me. I think I see Commissioner 
Domenico from Boulder County as well. I always feel thrilled 
when Boulder and El Paso Counties are in the same room 
together, brought here by a common interest and two very highly 
respected county commissioners.
    I alluded to the fact earlier that I didn't want to be 
called a senior citizen. But I am going to call for a 5-minute 
recess. I'll be back shortly, and we will then convene a round 
of questions with our witnesses. So I'll be back in 5 minutes. 
If anybody else needs to take a quick break, please do so, but 
we'll start right back up in 5 minutes.
    [Recess.]
    Senator Udall. If everyone will take their seats, we have 
about an hour. I'm really looking forward to the conversation 
that we'll have. I want to start with Jim Hubbard.
    Jim, as I mentioned, we saw each other at the after-action 
review meeting just a few short days ago. I thought, all in 
all, the various agencies and sectors involved worked extremely 
well. We can always improve our response. But as far as a 
baseline goes, there's a lot to acknowledge that went well.
    There were a lot of news reports--it wouldn't come as a 
surprise to you all--that questioned why more air tankers or 
airplanes were not used to fight the fire. I've been on the 
scene of a lot of fires. I'd like to actually reduce the number 
of fire scenes I visit in the future. But that's why we're 
here. In the process of doing so, I've learned a lot about how 
fires are fought.
    Tankers play an important supporting role. I want to 
underline the word, supporting. But the most important are the 
ground crews that get literally on the ground. As a member of 
the Armed Services Committee, I've also learned that fighting a 
fire is similar to fighting in a theater of war. You've got to 
have air support, but you have to have troops on the ground to 
win.
    We've discussed in detail whether the Air Force's C-130s 
were deployed quickly enough. I believe that they were launched 
as soon as they could be safely and effectively deployed. I 
also mentioned the Economy Act of 1932, which basically says 
the private sector should have every opportunity to provide 
services before we call in the military or other government 
agencies and--well intended, as I said, but it's one of those 
I'm going to take a look at for the long term.
    But will you describe the U.S. Forest Service's, in this 
context, strategy for air tankers and any takeaways you had 
from the after-action review?
    Mr. Hubbard. Certainly. You're exactly right on the use of 
air tankers. The primary use by the Forest Service for air 
tankers is initial attack. Their purpose is to slow a fire down 
until ground forces can get there. When we get into large 
fires, we often have air tankers, but in a support role, and 
the role they're playing is in combination with those ground 
forces, where we're taking actions to not only protect the 
ground forces but to buy them some time.
    Burnouts are something that we often do, and those planes 
lay down a line between that burnout and those firefighters so 
that they have some protection. So those planes aren't flying 
to drop retardant on the head of a wind-driven, large fire. It 
doesn't do any good. Those planes usually aren't even flying in 
winds. If the wind speed is at a certain level, we don't 
launch.
    It's a matter of working with the two together. So if you 
can't put ground forces into a situation, an air tanker is 
probably not going to do much good on a fire. But in 
combination, they do a lot of good. We had no shortage of 
aircraft during this last siege. At one point, Colorado had 92 
aircraft committed. That includes the helicopters as well. 
That's a lot of aircraft. It takes quite a bit to manage that 
kind of air space over fires, too, and that's an important 
consideration.
    As far as the C-130s, the Forest Service very much likes 
that platform as an air tanker tool and would like to use it 
more. The Economy Act does require us to exhaust the private 
resources at our disposal before we call on the military to 
activate the 130s in the mass units. But we're having 
conversations, as you well know, about perhaps where we have 
some imminent threats and we have some capability to deploy 
those resources. Maybe there's an exception that should be 
considered. We hope that gets examined.
    Senator Udall. Thank you for that, Jim.
    I direct these comments to Commissioner Clark, but also 
other Front Range communities, county commissions, and local 
government entities. We all know the history here in the 
Springs and the pride in which we all take in the presence of 
the military and the men and women who serve us so well. I 
know, as we all tried everything we possibly could, it was not 
initially understandable why the airframes at Peterson weren't 
covering El Paso County.
    The point I'm making is I think there's a possibility of a 
MOU or some arrangement here, because we don't want another 
fire to occur here, but we have to be prepared, given that 
Colorado Springs' red zone is particularly prone to fires, 
which, Sallie, we've all known for a long time. In fact, 
there's a lot of planning that's already been underway.
    But I want to pursue further whether there's not some sort 
of a specific agreement here, given the proximity of the 
aircraft, that would be in force if, in fact, in the future we 
need to fight a fire of any size. I'll work with the 
commission, with our military leaders, and the Forest Service. 
That was one of the conversations we had at the after-action 
review.
    There's still a lot of questions to be answered, and we 
don't want to, again, create an impression that Colorado 
Springs gets special treatment, but I think that's not what 
we're talking about. We're talking about making sure we plan 
for every contingency, particularly given the proximity of 
aircraft that could be of help. I just wanted you to know that.
    Let me go to Jack. As I mentioned, you were one of the 
primary researchers on the Four Mile Canyon fire. Based on your 
findings, what are 3 things a home owner can do in the 
wildland-urban interface to protect their property?
    Mr. Cohen. I think the first thing that a homeowner needs 
to recognize is that the fire is inevitable. The wildfire is 
inevitable. It's going to be inevitable under extreme 
conditions. It may not be very frequent, but they need to 
recognize that they're not necessarily immune for this kind of 
an event.
    They also need to recognize that fire suppression, fire 
resources, are going to be overwhelmed during those conditions. 
Because of that, many houses are not going to be capable of 
being protected. So, given that kind of motivation, perhaps we 
can then get home owners engaged, with their recognition that 
without their engagement, fire resources can't protect 
communities.
    So, in essence, what we've got, then, is fire suppression 
and fire protection from structure agencies assisting, 
essentially, what homeowners have already done. Having said 
that, then, with that motivation, the homeowner--the first 
thing that needs to be done is to look at where to change out 
flammable wood roofs. If you don't remove flammable wood roofs, 
then, by and large, you can't do anything. From my experience 
and from the research that I've done, there is virtually 
nothing that you can do if you're exposed to firebrands.
    So the first thing is to get the largest piece of flammable 
material off your house, at which point, then, you begin with 
the house to look at flammable debris that's in the rain 
gutters, that's on the deck next to your house, between the 
deck and the wall, and start removing that kind of material--
firewood piles, lumber. I mean, just because we live there, 
it's going to be vulnerable, and my house included.
    We start at the house and look for all of those things that 
can ignite and start working our way away from the house and 
making sure that flammable material that can product flames and 
contact the house or be in contact with the house, like bark 
mulch, just isn't there. We just remove that. That doesn't mean 
that you have to live in pavement. You just need to make sure 
that the dead material is out of those shrubs and removed away.
    To cut myself off, I would suggest that home owners start 
looking at web sites like Firewise.org for greater details to 
remind them of all of those things that might be present at 
their house that they should be mitigating.
    Senator Udall. Thank you for that.
    Mike, I want to go to you and then Jim, in turn, a simple 
question, but I'll ask you all to try to keep your answer 
succinct because it's the fundamental question, in a way. 
What's the reason that more fuels treatments aren't done?
    Mr. King. Money. I mean, that's it at the end of the day. 
We're struggling with that at the State level, as we've done--
you know, the private sector folks are out of jobs, and it 
results in less revenue through taxes. We've lost $4 billion in 
the State budget over the last 4 years. We've begun to turn the 
corner this year. We cut down, through the fat, through the 
meat, to the bone, into the bone, and it became a matter of 
prioritization.
    So you've got to make decisions in State government, like 
are you going to close schools or do fuels treatments--horrible 
decisions. We simply at the State level don't have the ability 
to spend in deficit, and so we kept our infrastructure in place 
and the emergencies were taken care of.
    Luckily, we're coming through that, and I think that you 
can rest assured that we are looking for ways to increase our 
funding for forest health and to partner through the State 
Forest Service with the U.S. Forest Service and local 
governments and water providers. We think there's a real 
opportunity there.
    We're talking about potentially making money available with 
a match to municipal water providers to do work that protects 
local infrastructure. Denver Water is clearly out in front on 
this. They did it on their own around Dillon reservoir, and we 
think that it protected their water infrastructure, but it 
protected the community as well.
    When you look at Rampart reservoir and other reservoirs 
around the State, there are the opportunities to get multiple 
benefits for the expenditure of limited resources through this 
partnership. I think that's what you're going to see at the 
State level. As we begin to come out of this recession, that's 
where our priority will be, and we'll show progress in the next 
legislative session toward doing just that.
    Senator Udall. Excellent.
    Jim, do you want to follow on? I know you have some of 
those numbers in your head. What's really vexing about this is 
it's less expensive to treat and prevent a fire than it is to 
respond to the fire, which is very expensive. Any time you hear 
a helicopter going over, it's cha-ching, cha-ching, cha-ching, 
not to mention all the people that are on the ground. But then 
to rehabilitate those areas and then to find the capital to 
rebuild the infrastructure that's destroyed--much, much more 
expensive. But it's hard to find those dollars on the front 
end. Would you comment, too, on that on the heels of Mike's 
comments?
    Mr. Hubbard. Certainly. The succinct answer is it's money. 
But the Forest Service budget has in it $946 million for 
suppression. We're likely this season to spend $1.4 billion on 
suppression. We have $300 million for hazardous fuel reduction. 
Of that $300 million, whatever hasn't been spent probably will 
pay the bills for that suppression effort, because you don't 
stop fighting fires. So it's hard to get ahead of this one 
because of the press of the emergency that you have to respond 
to.
    In hazardous fuel reduction, the cheapest acres we do are 
prescribed fire, and we can do prescribed fire for as little as 
$30 an acre in some places. The most expensive is $2,000 an 
acre, and that's when you're removing small material with no 
market, and you're in the interface, and you have limited 
opportunities for any kind of efficient operation. We have 70 
million acres plus that need this kind of treatment, and we get 
to about 3 million a year. It's really important that we pick 
the right 3 million.
    Senator Udall. On the heels of those comments, let me turn 
to Nancy and Jimbo and Merrill. I think we're all in agreement 
that we ought to do more fuel treatment. Supporting the forest 
products industry, in my opinion, is a way to have a triple win 
scenario, a win-win-win scenario. If you do it right, we're 
removing these hazardous fuels and we're turning that 
opportunity into jobs. How should fuels treatments be designed, 
and what needs to be done to get more work done on the ground?
    I think, Nancy, the killer opportunity, the killer app, 
almost, is how do we empower the private sector, and can we 
craft a model, a formula, that has a profitable incentive 
behind it, and then we would unleash the private sector? That's 
my vision, my hope, my dream. But would you comment? Then 
we'll, in turn, go to Jimbo and Dr. Kaufman.
    Ms. Fishering. Thank you for the question, Senator Udall. I 
think we've had examples in Colorado where we have had that 
sweet spot. I see Forest Supervisor Casamassa. The one that 
comes to mind is a stewardship contract that we did around 
Grand Lake in the middle of the bark beetle epidemic, where the 
essential services were to make those campgrounds safe. That's 
hand work. It's biomass. It's not a saw timber kind of quality 
thing.
    So the person that had the stewardship contract goes in 
there, does the hand work, gets paid for the hand work. But 
then they went into the back country a little further where 
there was conventional saw timber. That's a tree that you can 
actually turn into a two-by-four and actually sell it on the 
market and pay for the cost down below. It made perfect sense.
    So what I see slipping is we get work--and it's a huge 
challenge. The biomass thing is huge in Colorado and throughout 
the West. But we keep saying, ``Well, we can't afford to do 
everything. We'll do a service contract.'' We do way too many 
service contracts. There's got to be a way to marry it into 
stewardship where you have enough saw timber to pay for the 
hand work. That's the combination.
    I would argue our industry across the United States has 
come up with examples of way too many environmental impact 
statements. We've gone through the community meetings. We have 
all the consensus. Then we don't treat it aggressively.
    Senator Udall. Explain to us the difference between a 
service contract and a stewardship contract.
    Ms. Fishering. The Forest Service is so segregated in these 
different entities. But a service contract is like a 
procurement contract. It follows different rules, and you're 
paying somebody to go out and just start cutting trees or 
cleaning campgrounds or cutting hazard trees. There's a lot of 
things. But you're paying money for services because there's 
not enough value there to cover it.
    In stewardship, what we're trying to do to bring down costs 
is to have enough saw timber. It's a technical term, but it's 
what you need if you're going to turn it into a two-by-four 
where you can make some money. That pays for the service work. 
We're not doing that aggressively enough.
    Senator Udall. It's a form of hybrid technology, if you 
would. We're all excited about hybrid vehicles in the military, 
hybrid energy systems----
    Ms. Fishering. It is a hybrid.
    Senator Udall. I don't think I'm putting words in your 
mouth. It's a hybrid----
    Ms. Fishering. No, because the Colorado timber industry 
isn't what some people stereotypically would think of.
    Senator Udall. Yes.
    Ms. Fishering. We do a lot of--you mentioned West Range 
Reclamation, a very interesting and progressive company that 
wants to do restoration, and they want to work with the 
biomass. Even their business plan requires saw timber. It helps 
them cash-flow everything they do. Saw timber is the economics. 
Where the rubber hits the road, you get the value and you can 
treat more acres.
    Senator Udall. Jimbo, share your thoughts on this. I know 
you may bring a slightly different perspective. Please feel 
free to tell us how you see it.
    Mr. Buickerood. Thank you, Senator. First of all, as sweet 
as it would be that we could have one model that fits 
everywhere, that's probably not the case. So I do think the 
solution by region, by area, by community, needs to be given 
consideration. As noted before, my experience most recently has 
been working with the Pagosa Springs community. You know, we've 
hit the multiple benefit win-win-win piece there.
    Fortunately, the Forest Service awarded the stewardship 
contract there, and that's really going to make it happen. I 
mean, our working group has really looked at the forests around 
the community and priorities and what needs to be done. The 
stewardship contract will give us the money over--it's a 10-
year contract--to really get after the action piece of that.
    At the same time, it's not a lot of acreage every year. 
You're talking about 1,000 to 2,000. However, we hope to be 
smart about that and operate in the WUI and get after that to 
begin with. The other piece of that--and I know you've been out 
on the ground there. The exciting piece of that project is that 
that will really remove the fuels from the ground.
    Senator Udall. Yes, literally from the ground. When you say 
from the ground, you don't mean it figuratively. You mean from 
the ground level.
    Mr. Buickerood. Yes. That'll be taken off of the forest, 
and in this case would be used for chips for the biomass plant 
that'll be generating electricity. However, that said, it's a 
great model for the Pagosa area. I think the scaling of that is 
really important. J.R. Ford, who is the proponent of that 
project and the businessmen behind it--when he gave his 
testimony in Montrose at the House hearing, he said, ``Hey, the 
way this is going to work is because it's scaled to this.'' You 
know, his haul distance he can work with economically is 50 
miles.
    So it's not going to be a one-large-project-takes-care-of-
everything type of thing. But it fits well in that community 
for what the needs are. So I think that's an important piece of 
the puzzle.
    I would say the other piece of it, Senator, is--and this is 
what the working group was--our next phase here is to bring the 
public along, basically. You know, we've done our initial work, 
examining the landscape priorities, et cetera, et cetera, with 
this great diverse group. But the next piece is we need to get 
the public on board. So that's our next piece, this outreach to 
the community. Frankly, we're trying to piece together the 
funding to do that, but, you know, as everyone has pointed out 
here, that's the best return of investment right there on that 
piece of it.
    So, anyway, I'd say, overall, that scaling is really 
important. It might be a different fit for different 
communities, as far as what forest type they have around and so 
forth, and the scaling is really a big piece. So what might 
work in Pagosa may not be the solution in some other 
communities in the State.
    Senator Udall. Merrill, would you comment, and perhaps as 
you do, give us all a 60-second tutorial on the context of your 
comments tied to my question about the different forest types 
in Colorado? It's tempting to talk about the lodgepole forest 
where you have stand replacement fires and where the bark 
beetle is most evident. But you have the ponderosa-Doug fir 
ecosystem up and down the Front Range, where I'm very, very 
worried, but then in Jimbo's area, it's a slightly different 
forest type that's more southwest, more 4 corners based.
    Then, of course, you have the Pinon-juniper forests that 
were part of, I think, the Mancos fire, certainly the Pinon 
Ridge fire, which, by the way, almost overran I-70 and that 
railroad corridor and quite a number of natural gas and oil 
wells. Although it didn't burn many structures, that was a fire 
that was very, very scary for, I think, about a 2-hour period.
    I'm saying too much. I want to hear from Dr. Kaufman.
    Mr. Kaufman. There's no question that we have 3 or 4 major 
forest types that are fire dependent in one form or another--
lodgepole pine, ponderosa pine-Doug fir forests, Pinon-
juniper--to a much lesser extent the Subalpine forest and 
spruce-fir. What keeps coming up in my mind is that we've got 
an enormous problem with dead trees in the lodgepole pine zone, 
and attention to that issue is really important.
    But I can't escape in my mind the observation that so many 
of the big fires have been occurring not in the lodgepole pine 
zone--including with the dead trees that are standing around 
the ground--but rather in these ponderosa pine-Doug fir 
forests, particularly in the Front Range. That could change 
tomorrow. We could have a bad fire in lodgepole pine somewhere.
    My colleagues at the Nature Conservancy--I just learned 
this morning--have done some calculations of how much fire has 
occurred in lodgepole pine in the last decade or two. It's 
numbering in the 10,000-acre range, not in the half million-
acre range. So from the standpoint of the sheer impact of where 
the fires are and where the risks are, I still think the 
ponderosa pine-Doug fir forests are the worst case.
    I actually led a review for the Joint Fire Science Program 
a couple of years ago, looking at fuel treatment approaches to 
substitute for fire. This was a review of a study that had 11 
different sites around the country. In all honesty, the Front 
Range situation with ponderosa pine-Doug fir forests and, 
particularly, then with the WUI is probably one of the top one 
or two worst situations around the country, not lodgepole pine, 
in spite of how damaging the beetle kill has been and how it 
has changed the look of those forests.
    Again, I don't want to get into a judgmental position here 
of what's more important. But the observations are that the 
fires and the damage, the loss of lives, are occurring in these 
lower forests.
    There's a conundrum. Treating these forests is cheaper than 
fighting the fire and putting out the fire that burns them 
down. But can you tell me where the next fire is going to be, 
so you know where to treat? So we don't have that knowledge. We 
can do some things. Obviously, we try to prioritize in the WUI. 
But we can't come up with a true prediction of where the fire 
is actually going to occur.
    Now, all this said, you know, I hear Nancy's point that the 
industry needs to make some money, and they can make some money 
with saw logs. Ponderosa pine doesn't produce a whole lot of 
really high-quality saw logs, in the Front Range area, at 
least. It may in the southwest--certainly has over the years. 
So we're left with enormous quantities of biomass in trees that 
don't have that much commercial value.
    So if you look at the whole picture, somehow or another, we 
have to find ways to extract the best economic benefit that we 
can from whatever we take out of these forests to improve their 
ecological condition and to improve the protection from 
wildfire. But we're still going to have mountains of biomass to 
deal with. If we let it sit there, we'll, obviously, at some 
point in time, burn it up and have another big fire, whether 
it's in small piles around the woods or whether it's in big 
piles in centralized locations.
    There's energy in it. Can we somehow or another figure out 
a way to use that energy to offset fossil fuels, to provide 
either power or fuel, gas--you know, liquid fuels or whatever. 
I don't know the technology. I'm not going to pretend to know 
it at all. I know there are a lot of problems, or we would have 
had that nut cracked by now.
    But I don't see how we can address some of these major fuel 
problems for wildfire without addressing what to do with the 
biomass. We cannot pile it along the road somewhere outside of 
subdivisions. So, you know, again, we're going to have to come 
back to some kind of prioritization.
    Nancy's point that you have to make some money to support 
the industry and that then will generate enough of a picture to 
help deal with the places that are not so profitable--I agree. 
We've got to do that. I won't say for a minute that lodgepole 
pine harvesting should not be done to support the industry and 
keep it on its feet in some fashion or another. But we've got 
to find a balance, and I'm not going to tell you I've got the 
answers.
    Senator Udall. You spoke earlier about research in your 
lane, and we need to redouble our efforts there. You're also 
alluding to the fact that we need to continue to do research on 
the alternative liquid fuel front. There's some promising 
developments there, but we still haven't cracked another code, 
that is, how do you accelerate mother nature's processes that 
generally take millions of years to work to create liquid fuels 
into a few short years.
    Mr. Kaufman. We've got questions of how to be effective at 
a large scale of operation, at a landscape scale. Do we really 
know how to modify the forest landscape in a way that does 
provide the protection that keeps Jack Cohen and his colleagues 
happy, that we're protecting places? So we've got to do that.
    But, to my mind, having spoken countless times to groups of 
people, we've got an enormous education process that's been 
alluded to to help people understand what their problem is and 
to help people get into a better position to decide whether we 
can undertake this kind of industrial activity in our forests. 
Because if we really expect to solve the problem, we're going 
to have to tolerate some things that aren't very comfortable 
for us. We like our forests the way they are. We've all come to 
like them. But we may--you know, I think we understand the risk 
of that as well.
    Senator Udall. Again, back to you, the photos that you 
showed me that were taken along the I-70 corridor as you come 
out of Denver--that landscape looks natural and healthy. We 
venerate, literally, because the trees to us are something--I 
should speak for myself--sacred, something marvelous, something 
that demonstrates the miracle of life on this planet. There are 
way too many trees--and you'll have to correct me in the back 
room here, but I remember something on the order of just a few 
mature trees per acre 100 years ago in the ponderosa ecotype.
    Mr. Kaufman. Many places, historically, would have had 40 
fairly large trees in an acre.
    Senator Udall. In an acre.
    Mr. Kaufman. You know, that's a very open forest. It's 
almost a woodland kind of setting instead of a forest setting. 
Where restoration work has been done, like on some of Denver 
Water's land in the South Platte--where that kind of work has 
been done and is shown to the public, the public buys into that 
end result. They may not like the way it looks for a year or 
two in the process. But, afterwards, the place is good for 
biodiversity. It's a pleasing environment to look at. It 
doesn't have the same privacy if you are screening from 
somebody's house a few yards away.
    Senator Udall. That's one of the changes that'll be--this 
will all work out. It just won't necessarily work out in the 
human life span. That's what's so distressing to all of us.
    Mike and Jim and Nancy, in turn, speak a little bit more 
about biomass and what we're doing or what we could do. Of 
course, again, biomass--we throw that term out there. You can 
use it to produce heat. You can use it to produce electricity. 
You can use it to produce liquid fuels, although, as I 
mentioned, that's still a big challenge. But speak to what you 
know on that topic.
    Mr. Buickerood. We're wrestling with a lot of different 
variables. Every time we try and crack the nut, we find that 
there's another impediment in the way. What we found with some 
of the liquid fuels companies was a sense that to get the 
investment into the new technology, they needed 20-year 
supplies of massive quantities of trees. Then, of course, the 
Forest Service contracting doesn't allow that. So that was an 
inherent impediment.
    Some utility providers look at coal fire, which I think has 
the potential to really make a difference at a landscape level. 
Then you get coal that's remarkably inexpensive and gas 
treating at $2.10 an mcf, and the economics don't work. So 
every time we think we have a potential solution, just 
invariably something pops up, whether it's economic or 
technological or contracting or NEPA or all of these things 
that seem to be conspiring to lock us into a situation that is 
untenable.
    Every one of them seems to have something, which is why I 
think that the Pagosa experiment--the model works, because it 
is site-based. It's not requiring a level of resource that 
makes people uncomfortable. We're not talking about 400,000 
acres of trees being dedicated to this facility. It's right 
sized, and if we can replicate that model at various businesses 
around the State of Colorado, I think that, again, gets us a 
long way toward where we need to go.
    But I absolutely share your perspective that if the private 
sector isn't driving this, if we don't figure out a way to have 
these products making money in the private sector, we in the 
public sector simply don't have the resources to ever scratch 
this.
    Senator Udall. Nancy, do you want to speak?
    Ms. Fishering. It sounds disheartening, but I think we just 
went through one of the worst economies, the great recession. 
But the sawmills that I know in Colorado were right on the edge 
of implementing more and more of those wood-to-energy projects 
when the capital dried up just to nothing. But credit is now 
loosening up.
    The good news--we had the--we don't have many sawmills in 
Colorado. But the largest one we had that did 90 percent of the 
fire killed around the Hayman fire in Colorado Springs in 
2002--95 percent of the bark beetle processing in the lodgepole 
went to a mill in Montrose, Colorado. That's where I used to 
work. It went into receivership. It's coming out of 
receivership. We now have two mills close to Colorado, being 
Saratoga, Wyoming, and the one in Montrose, that are perfectly 
capable of making money and helping with the biomass issue.
    So I think we're on the precipice again of getting back 
into where the economics are going to work, and we're going to 
see what we're speaking about on Pagosa. We're talking small 
biomass. We're not talking the huge size. When the 
Intermountain mill went into receivership, we had companies 
from China coming to buy it. But they wanted to work on a scale 
that you're going--please, don't. We have community support. We 
want to keep that community support. But I think we're going to 
be very encouraged to see our opportunities grow for biomass.
    Back to the research, we have a good research project going 
on the Western Slope specifically on this issue. We're doing it 
through Rocky Mountain Research Station. It's part of our 
monitoring money through the Community Forest Landscape 
Restoration Program. His findings are going to be out in 
September.
    But he's got the dollar figures. How much does it cost to 
get the biomass out of the forests? How much is it going to 
cost you to get back on a kilowatt hour before it's going to 
make sense? What we're finding is combined heat and power are 
the most efficient projects, where you have a use for the heat, 
a use for the electricity, a use for the--you need all 3 of 
them, combined heat and power. We have those opportunities in 
Colorado.
    So I think we've got opportunities. We talk about 
challenges, but we've got huge opportunities. Getting out of 
this economics of the past two or 3 years is going to help us. 
But we've got the feasibility studies already done. We've got 
engineering done. It's on the shelf ready to be implemented. 
We're pennies away. So I think we're going to get there.
    Senator Udall. Jim, would you respond as well from the 
Forest Service perspective?
    Jimbo, you've got your hand up. Do you want to make a 
comment as well after--OK.
    Mr. Hubbard. I agree with what's been said. I've been 
waiting for that breakthrough that hasn't come. Even some 
progress on electricity to the grid hasn't moved ahead enough 
to be the answer. So it becomes a matter of local heat and 
power, and it becomes a matter of scale, like Pagosa has 
learned.
    Pagosa put together some unique approaches and some unique 
public support to do what they're doing. There are some common 
elements there that everybody shares, though, and that's the 
fire risk and the values to be protected. But those local 
solutions, to me, offer us the most hope. That's a local 
solution for a piece of this puzzle, though. That's the 
hazardous fuel piece. If we don't do that in combination with a 
Firewise community and with the coordinated suppression 
response as a package, then we still will have trouble.
    Senator Udall. Mr. Buickerood.
    Mr. Buickerood. It's pretty obvious, but just to carry 
through on that, this is one of these situations that the 
magnitude--it's like we need all the tools. I just want to 
throw out another possible tool--and maybe you're becoming 
familiar with that--and that's the use or the term of biochar. 
The reason I bring that up--and we're starting to work on--it's 
another one that is very local, but who knows what the scaling 
is on that. We're starting to work on that locally.
    But there is a commercial enterprise--it's outside of 
Loveland or Fort Collins--that is starting up with a very large 
project right now, which is very exciting. So I think that's a 
large scaling on that. I mean, they're talking about semi loads 
of materials.
    But the reason it has come up in our community is, coming 
off a Firewise program, we have contractors who are doing fuels 
reduction projects, and they're like, ``OK. What are we going 
to do with the biomass?'' The county is like, ``Well, we don't 
want it in the land fill,'' et cetera, et cetera. So it's, once 
again, one of these things that could line up to be multiple 
benefits.
    There are some hurdles to overcome, but the State has--I 
think you had funds before for it, for the support, and maybe 
that's run out, because, you know, it deals with a little bit 
more money to be able to figure a couple of these pieces out. 
I'm not sure if you're aware of it, but with biochar, one of 
the win-win-wins on this is that we also have a lot of mine 
reclamation pieces, and we have well site reclamation. These 
are all agricultural amendments, et cetera, that biochar can be 
used for.
    The market for biochar is definitely there. We have to get 
over this hump--production deal. We're just looking at it in a 
small way, but it might be possible, as is being done up--I 
think it's the Fort Collins area--to do that large scale, too. 
So I'm just suggesting this, like, ``Yeah, let's look at all 
the tools.'' I think that's one of them that, hopefully, we can 
move forward on.
    Senator Udall. Biochar is a fascinating opportunity for us. 
It sequesters carbon. It puts minerals back in the soil. 
There's a lot to recommend. So thanks for pointing that out.
    I know we're starting to get close to the end of the time 
we have allotted. I did have a couple of other questions I want 
to ask, and then I'd like to ask each one of you to summarize 
in your final comments the 3 most pressing things that Congress 
could do. So you can get ready to share that with me.
    But, Mike, let me ask you a question about the roadless 
rule. We went through a 7-year collaborative process. Some 
would argue it went on even longer than that. I played a role 
in it. I think we did ourselves proud, frankly. There are some 
who still have concerns about it. But I want to ask you did any 
of the major wildfires this year affect areas protected by the 
Colorado roadless rule?
    Mr. King. Senator, the answer is no. I'm not as familiar 
with the one down by Mancos because it didn't have the huge 
impact on the communities like the 3 on the Front Range did, or 
at least the immediate acute impact. So what we've seen is that 
the Colorado roadless rule does provide far more flexibility 
than the 2001 rule for treating around these communities. That 
is one of the fundamental benefits of the Colorado roadless 
rule.
    The 2001 rule was a great conservation effort, and it did 
some tremendous things. But it was promulgated in a time when 
we weren't sitting on 4 million acres of dead and dying trees 
in Colorado. So this is one of the things that we felt was so 
important, that we had the ability to treat within a half mile 
of the wildland-urban interface with temporary roads and tree 
cutting, and then we could go another mile beyond that with 
tree cutting and fuel removal. So we think that, again, if we 
can come up with the resources and focus our energies in those 
areas where roadless does come up adjacent to communities, we 
have far more flexibility and that's one of the primary 
benefits of the Colorado roadless rule.
    Senator Udall. I'm a strong supporter of the roadless area 
concept. I think the Clinton administration was wise to promote 
it and propose it. I also know that in the process of working 
through it, we found the need for some flexibility as you 
described. I know the really destructive fires have been 
occurring most notably along the Front Range, with some notable 
exceptions. But that doesn't mean that in the roadless and 
wilderness areas we don't have water systems that are at risk, 
we don't have transmission lines that are at risk and other 
infrastructure that is an important part of Colorado.
    Jim, in that context, would you speak to wilderness areas? 
Can the Forest Service fight fires in designated wilderness 
areas, and did any of our major wildfires this year affect 
wilderness areas? You can be frank on this. I think people know 
where, certainly, my lean is on this. But we want all the facts 
in front of us so that we're making the right kind of policy 
decisions. But please speak to that question.
    Mr. Hubbard. Certainly. Yes, we fight fire in wilderness 
areas. Even though there are some restrictions, those 
restrictions are left at the discretion of a regional forester, 
so they can grant an exception within minutes if they need to. 
But our response is aggressive, and we go into wilderness 
areas. Oftentimes in remote situations, that might be smoke 
jumpers, but along with those smoke jumpers on that plain are 
chain saws and mechanized equipment, that if they decide they 
need it, it goes in with them.
    So we sometimes aren't as aggressive with our suppression 
response in wilderness areas, and fire does its thing in the 
system and reduces future risk. But we are aggressive any time 
we have values at risk.
    Senator Udall. Talk about the High Park fire, the western 
reach of that fire. You'll have to remind me the category that 
area is a part of. But we let that part of the High Park fire 
burn for a while because it was in an area similar to 
wilderness. Will you speak to that a bit?
    Mr. Hubbard. Yes. It falls into that land management 
planning decision that the local line officer has authority to 
make. If that means that that part of the fire doesn't get the 
same suppression action, the same asset allocation that other 
parts of the fire that are threatening higher values get, then 
they have that discretion to pick that kind of a strategy and 
they do. They use that.
    So we put our assets where we have the most values at risk. 
We don't ignore any fire on the landscape, because it does 
threaten to be a future problem. But if it is reducing future 
risk, we like to manage it that way.
    Senator Udall. It was a silver lining, albeit a very dim 
silver lining, in the High Park fire that there were areas 
that, in effect, then, were subject--back to Dr. Kaufman's 
comments--to controlled burns because of the fire that began 
outside of our control, and we were able to at least put that 
fire to a little bit of good use. If we take the attitude, 
which we're--and Dr. Kaufman has made it clear we have to take 
the attitude that we have to coexist with fire. Fire is going 
to have the last say--that there are, in some cases, those 
kinds of opportunities.
    It certainly wasn't the opportunity in the Waldo fire, 
because it's been so devastating. But you still had a mosaic 
pattern of burns, which is, in the end, what--a healthy forest 
would have a mosaic pattern, not in the kind of way we've seen 
some of those patterns.
    Mr. Hubbard. Whether we like it or not, fire treats more 
acres by far than what we have money to treat.
    Senator Udall. Yes. I think we've come to the point in the 
hearing where I would, as I said, like to ask each of you to 
make any final comments and to give it to me straight, as a 
member of the Senate and a member of the U.S. Congress, what 
would be on your list that the Congress could and should do, 
either in an imperfect or a perfect world.
    So maybe I'll start with Mike, and we'll move across the 
panel.
    Mr. King. Thank you, Senator. Again, I want to reiterate my 
appreciation for you hosting this forum for us to put some 
ideas out on the table. It's been very enlightening, and I look 
forward to following up on some of the ideas that have been 
presented.
    I think that, from my perspective, one of the things that's 
frustrating is the contracting provisions. Having dealt closely 
with trying to get the Montrose mill up and running and viable, 
I think there's a fundamental problem with the Federal 
contracting process that cannot shift from viewing our trees as 
an asset for the Federal treasury. They are now a liability, 
and the contracting process simply cannot adjust to that 
dynamic, and we need to have a different contracting process 
for our dead and dying trees, because they are a liability, not 
an asset at some point.
    I think we need to have a streamlined review process. I hit 
on that a little bit. I'd like to see those areas in the WUI be 
given an expedited process. They've got to be economical. 
They're marginally economical at best. But maybe if we can get 
to them faster, they can fill in the blanks for mills as they 
are working toward their longer-term, more sustainable, more 
economic material.
    Then, finally, I think that we need to always be looking to 
make sure that our air quality permitting process is 
appropriate for our treatments. So one of the things that I 
hear is a constant concern is that the windows of opportunity 
open and shut too quickly and that we can't do the prescribed 
treatments in an effective way because of some of those things.
    Of course, when you have these massive conflagrations, the 
air quality standards aren't--they go out the window, because 
mother nature doesn't comply with air quality permits. So I 
think in the long run----
    Senator Udall. Let's haul her into court.
    [Laughter.]
    Mr. King. She rules me, not the other way around. So those 
would be the 3 things that I would put on the table.
    Senator Udall. Those are all very helpful.
    Merrill.
    Mr. Kaufman. I haven't given a ton of thought to your 
questions.
    Senator Udall. You can submit ideas, too, for the record 
later.
    Dr. Kaufman. Yes. Thank you. Thanks for the opportunity to 
be here. I really appreciate the discussions you're fostering 
with your actions and activities.
    I've mentioned this numerous times. The whole question or 
difficulty of ecology and field problems is worse in the Front 
Range, so focus there. Others may dispute or argue with that. 
That's fine. But my take would be that this Front Range has a 
demonstrated bad problem, and related to that, sort of some 
knowledge questions or issues that need to be addressed.
    One is how do we actually distribute the work that we do on 
the ground to be the most effective for mitigating the fuels 
problems and for getting the ecology as restored as we possibly 
can? Second, fostering collaborative analysis and research 
effort to understand what both the possibilities and the 
barriers are for kind of the system or body of work that needs 
to be done to pull everything off--how do you make all the 
pieces and parts come together, and which parts? Is it energy? 
Is it the biomass? Is it the economics? Is it whatever? Try to 
come up with a kind of a systematic or systems analysis of 
where the most critical barriers are, and try to then foster 
activities and efforts that would address those to become more 
effective.
    I know the roundtable asks that kind of question on a 
regular basis. Those questions, I think, need to be addressed, 
I mean, at the State level as well. They obviously are.
    Finally, again, a knowledge question--we need to make sure 
that we've got a growing understanding of the ecological issues 
as they come up, having to do with scaling up treatments over 
large areas. It hasn't gotten mentioned today, but the whole 
uncertainty of climate is a big concern. I know the Senate and 
many other players are looking at that question.
    It's not necessarily just the ponderosa pine-Doug fir zone 
that's out of whack. All of our Front Range and all of our 
statewide life zones may be out of whack for the conditions 
that we're likely to have emerging in the next decades. So 
issues such as that, as well as the human dimension, the social 
issues, and how they play a factor in understanding the nature 
of the problem, committing to doing something about it, and how 
to implement those efforts in a way that our public, all of us, 
can live with.
    Senator Udall. Thank you for that.
    Jimbo.
    Mr. Buickerood. Thank you. Three pieces here. I think, 
first of all, Senator Udall, your leadership and leadership, in 
general, on this issue is big. It's kind of the oeuvre piece to 
the whole issue. You know, to have the visibility for the 
concerned and to move it along in the State level and the 
Federal level and so forth really takes, you know, leadership, 
and I appreciate you taking the point on that. I would 
challenge you to do something that you like to be challenged to 
do, which is to bring that leadership in a bipartisan nature to 
the State and to the Nation.
    But, you know, if we can get the full congressional 
delegation here in Colorado on the same page as to what the 
priority of this issue is and all hands on deck, all tools we 
need, funding and so forth, I think that's like the top issue. 
Adjacent to that is the funding issue. I guess it humors me 
kind of in a sad way that we can't get across the point that 
the cost to treat, to do fuel treatments and so forth, as noted 
by Jim's numbers here, is multiple times cheaper than 
suppression.
    So there's your challenge on that one, which is of the 
Senate. It's like do we want to spend money with this return on 
investment, or this, you know? So I think that's a really 
strong piece. I think there's a lot of information there to 
support you in making that point. But it's a big piece, like 
let's get the money up front here, as much as we can. I know 
it's a big challenge, but I think that funding--you know, let's 
put it where it's going to pay off.
    Then another piece, I think, what was curious about pieces 
of the solution that are maybe a little bit different or 
inventive or--maybe not in a huge way, but on the State level, 
I'm curious as to what could be done legislatively to move 
communities forward toward prevention efforts. For example, the 
county that I live in, Montezuma County, which is not the most 
progressive county in the State, nonetheless has what I believe 
is the first piece of the land code--though there may have been 
others since that time, but they tell me they're first--and it 
has to do with new subdivisions in the land use code and 
requiring them to have CWPPs.
    I'm not all the way up on what the latest is on that, if 
other counties are doing it. But that would be a great 
initiative to see in the State legislature of moving that 
forward. Once again, one size doesn't fit all. But, you know, 
to move the communities toward that--it's a good use of time 
and investment. So I think those--and there's other pieces like 
that, too, that might be done legislatively in the State. But I 
think that one, to move the home owners, to move HOAs, and 
counties in that direction would be very helpful as well.
    Senator Udall. Thank you.
    Mr. Buickerood. So I appreciate your leadership on this 
issue.
    Senator Udall. Thank you.
    Nancy.
    Ms. Fishering. Thank you, Senator Udall.
    Thank you, Mike King, because you pretty much said my top 
three. So I'm going to reiterate that funding is key. We've 
said it. We understand the constraints at every level. But 
funding, fundamentally, has to be part of that whole equation.
    The operating restrictions--that's an in-the-weeds 
suggestion, but I'm sure that there's fixes that the Forest 
Service would like to see, because they're the ones that--their 
hands are tied, because it's in case plots and old regs. 
They're not designed for trying to walk into 6.6 or 7.6 million 
acres of problems. We can't do it the old way. So that's huge 
for me.
    I understand the priority issue, something we talk about at 
every collaborative table that I know of in the Colorado Forest 
Health Advisory Council. But we don't want to tear our State 
apart by saying this is the only place we have a priority or 
it's our biggest priority.
    We've got to figure out a way to be working across the 
State, because there's issues across the State. Perfect 
solutions in Pagosa--we've been working on it outside of 
Montrose. But it would be awful. At one point, they talked 
about taking 60 percent of all the funding from southwest 
Colorado to deal with the lodgepole. We do not want to do that 
in the State of Colorado.
    Senator Udall. Thank you for that.
    Jim, will you speak on behalf of yourself and Jack?
    Mr. Hubbard. Certainly.
    Senator Udall. You've been waiting for that moment.
    Mr. Hubbard. Thank you, Senator Udall. Thank you for the 
hearing and inviting us to participate.
    I would still want to reiterate that our solutions come in 
the form of fire response, community protection, and landscape 
treatment, and that addressing those issues as a package is 
important to us. But, specifically, things that we could use 
your help with--our large air tanker fleet is old, 50 years 
old, and that needs some attention. We've had some discussions 
about options, and we need to figure out how we want to 
modernize that fleet.
    Our approach to how we finance suppression is problematic, 
too, because it affects too many of the other funds that can 
help solve this problem and get ahead of this problem perhaps. 
So I'm not offering you a solution, of course. But I am 
suggesting that it's a major impediment to getting at some of 
the solutions, making the money available to get at some of the 
solutions, even within the current budget. I think your 
attention to some of the tools that can help promote local 
solutions, like Good Neighbor and stewardship contracting, are 
important.
    Senator Udall. Thank you for that, Jim.
    If I might, I would like to make a couple of comments to 
further clarify a couple of other comments I've made and ensure 
a couple of my thoughts, and then we'll conclude the hearing.
    I'll speak to Commissioner Clark again. I got caught up--as 
we all said we shouldn't fully get caught up--in the air 
support that we can direct to fires. One of the other 
conversations we had at the after-action review was training 
the soldiers and airmen that are based here, within the 
military's budgets and within the military's other needs, to be 
on call to fight fires.
    The point I'm making is that, as we've heard over and over 
again, it's the firefighters that really make the difference. I 
know that was another concern here. But Dan Gibbs is a 
firefighter, and he knows the adrenalin rush, but he also knows 
the danger that's involved. I think I heard from everybody from 
General Anderson to General Jacoby that they think they can 
find some ways in which to train their personnel here so that 
if again there is a fire in this area, we may have additional 
firefighting capability right here on the ground, which is what 
the community has asked for and which the community would, I 
know, fully support.
    So that's, again, back to what I was saying earlier about 
looking at some arrangements here, given the assets we have 
right here on the ground. I don't know that it would have made, 
with the terrible conditions that developed that night, that 
late afternoon, much of a difference in those few hours with 
the intensity and ferocity of the winds and the fire. But that 
was also part of the after-action review, so I wanted to make 
sure you and the community knew that.
    Let me just say thanks to all of you for compelling 
testimony, excellent insights, some ideas I can take back to 
Washington. I heard a lot about local involvement.
    Jimbo, you asked about the insurance sector. I think you're 
beginning to see that that's another form of the private sector 
responding, providing incentives. When that's tied into 
counties and local governments working in the best way to 
develop some ordinances and codes to encourage and incentivize 
home owners to create firewise communities and fire adapted 
communities, I think that's a form of a sweet spot.
    Nancy, I never thought 20 years ago, when I envisioned 
perhaps having an opportunity to serve in public office, of 
being an advocate for sawmills, I have to confess. But, as you 
know, I have been. We worked closer together to keep the 
Montrose mill open, although there's still real concerns. Of 
course, there's a sawmill in Delta. There's one in Sawatch. 
We'll keep weighing in, pushing the Forest Service, 
respectfully, but nonetheless pushing them and working with the 
private sector, because the sawmills are important to forest 
health, particularly here in our State of Colorado.
    Merrill, you mentioned climate. I don't want to give you my 
30-minute speech on climate. But, certainly, you're welcome to 
visit my web site, listen to and read what I've had to say. I 
think we have to factor this in. There's so much opportunity in 
responding to the threat of climate change that I get excited 
about it, from national security to job creation to the 
environmental benefits.
    This hearing was focused more on the short and the medium-
term steps we must take. But you can't ignore what's happening 
with climate. After all, even if the 99.9 percent of the 
scientists are wrong, the steps we ought to take to respond to 
climate change will serve us well, again, when it comes to 
national security, job creation, and environmental protection, 
because of the new technologies that will be generated. So 
thank you for mentioning that.
    Jimbo, you've triggered in me a thought that, although 
there's a loose coalition of senators in both parties who are 
working on forest health, perhaps we ought to formalize that. 
Perhaps we ought to come up with a set of principles and 
proposals that include many of the ideas that have been 
generated here.
    There's a great list of senators, from Jim Risch in Idaho 
to John Thune from South Dakota--who would have been an 
excellent vice Presidential candidate, by the way, but we'll 
talk about that later--to Mike Johanns in Nebraska to Orrin 
Hatch in Utah, and those are all Republicans I mentioned. There 
are, of course, Democrats who are very engaged in this as well. 
So that's a great call to action.
    I wanted to finally acknowledge the great staff that serve 
us all so well. There's a question in Washington: How do you 
know who the senators are? The answer is always: They're not 
carrying anything. If you've ever been there--and you can take 
that literally or figuratively. But, you know, they're a great 
staff, young and middle aged and the like, carrying big 
notebooks around and making hearings like this happen. Then 
they're responsible for accumulating all of the thoughts and 
ideas and keeping those thoughts and ideas alive.
    So I just wanted to mention the staff that are here today. 
Kevin Rennert is behind me right here, and he has worked 
closely with Senator Bingaman and has taken time out of his 
August State work period to come up here and help this happen; 
Jill Lazarski, who is back here to my right; Jacqueline 
Emanuel, behind me, who works for the Forest Service and is a 
Fellow in my office right now; Melissa Peltier--she's back up 
here and works in Colorado Springs, and she and Angela Joslyn--
where's Angela--there's Angela, who is my regional director 
here in the Springs.
    They're quite a team, and they're always on call to respond 
to any of your questions having to do with anything with the 
Federal Government.
    Jennifer Rokala is here. She's my State director.
    Now, who have I forgotten, Angela? Who's here that I 
didn't--Mike Seconi--and wonderful interns. We pay interns 
marvelously well in psychic rewards. But, seriously, they're a 
real important part of my office, and they are marvelously 
tireless in their work. Thank you for your support. But, again, 
this is one of the many steps in this journey.
    Pam, let me do a couple of housekeeping matters and then 
I'm going to turn it over to you.
    Again, I want to thank you all formally for being here. 
We're going to keep the hearing record open for 2 weeks for 
additional comments and maybe additional questions that I might 
direct your way or Senator Bingaman might direct your way. You 
can send statements, those of you here, to my office in 
Colorado or to the Energy and Natural Resources Committee.
    I will formally adjourn the hearing, but I'd ask you all to 
sit just for a few more minutes so the Chancellor can make her 
remarks. So the hearing in Colorado Springs, in the great 
State, the centennial State of Colorado, of the Energy and 
Natural Resources Committee is adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Eric Howell, Colorado Springs Utilities, Forest Program 
                     Manager, Colorado Springs, CO
    With the recent wildfires along the Front Range this year, Colorado 
Springs Utilities itself has been directly affected by the Waldo Canyon 
Fire from both a water supply standpoint as well as disruption of 
service and extensive damage to gas and electric systems from the fire 
storm that entered into the Mountain Shadows subdivision in the north 
western part of Colorado Springs. While efforts to made to repair and 
quickly restore gas and electric service shortly after the fire, 
Colorado Springs Utilities is facing long term risks to its water 
supplies and infrastructure from post fire flooding and sedimentation. 
Given the nature of the infrastructure and operations at risk, there is 
a potential that water service to nearly 200,000 customers-owners could 
be disrupted.
    Of the total 18,247 acres burned by the Waldo Canyon Fire, 14,422 
acres was on national forest land, 3,678 acres private land, and 147 
acres on Department of Defense land. Of the private land burned, only 
60 acres operated and managed by Colorado Springs Utilities was burned. 
Predominantly the lands of concern with the greatest potential to 
disrupt water service or cause damage to infrastructure from post fire 
impacts are under the ownership of the U.S. Forest Service.
    Colorado Springs Utilities worked diligently during the incident as 
well as during this post fire period to communicate our values at risk 
and provide support to the Type I Incident Command Team and U.S. Forest 
Service during suppression operations. Those efforts graciously 
resulted in the protection of our water system as a high priority 
during the incident and continued with ongoing coordination with the 
BAER Team during the emergency response planning phase. Recognizing the 
priority and limitations of the BAER Team to protect life and forest 
service assets, Colorado Springs Utilities is seeking to work beyond 
the BAER Team recommendations through a collaborative effort with the 
U.S. Forest Service, Pikes Peak Ranger District and Coalition for the 
Upper South Platte. These efforts will include supplementing immediate 
emergency response treatments as well as focusing on long term 
restoration projects to better protect Colorado Springs Utilities water 
supplies and assets affected by the burn area.
    In light of the extreme fire and weather conditions that led to the 
explosiveness of the Waldo Canyon Fire, it must be recognized that this 
incident is an ongoing need to address the forest health and wildfire 
conditions along the Front Range. As already studied and summarized in 
the 2007 Protecting Front Range Forest Watersheds From High-Severity 
Wildfires, An Assessment By the Pinchot Institute For Conservation 
Funded By The Front Range Fuels Treatment Partnership, wildfires in 
Colorado are increasing in intensity, severity, and size due to forest 
conditions and the prolonged disruption (suppression) of fire regimes 
and intervals in the lower montane and Ponderosa pine forest types 
common along the Front Range. As a result of suppression activities, 
frequent-low intensity fires have no longer been allowed to burn and 
naturally thin and reduce excess fuels to better maintain healthy 
forest conditions across these landscapes. Not only would these low 
intensity fires help to reduce the wildfire hazards, but they also 
serve to create forest conditions that are more resilient to insects 
and disease that in turn provide a more sustainable system for water 
supplies and many other resource values of importance.
    The Pinchot report should be revisited by members of the Energy and 
Natural Resources Committee as a guide for the forest management needs 
in Colorado along the Front Range. Although there are many forest 
management issues across the state, especially with bark beetle 
incident, there is, however, the greatest wildfire issue occurring in 
this ten county area and funding to address this issue is lacking as 
compared to what is available for the bark beetle incident.
    Colorado Springs Utilities has long been engaged and active in 
forest management programs for the purposes of mitigating wildfire 
hazards and forest restoration on its watershed properties. Through a 
cooperative agreement with the Colorado State Forest Service, nearly 
3,500 acres have been treated on Utilities watersheds in El Paso and 
Teller County. Colorado Springs Utilities has also collaborated with 
the U.S. Forest Service to participate and fund the 2010 Catamount 
Forest Health and Hazardous Fuels Reduction Project, Environmental 
Assessment. Colorado Springs Utilities will continue to participate and 
assist with funding for the implementation of this project which will 
allow treatment of approximately 23,000 acres on the Pikes Peak massive 
to protect critical watersheds and other natural and developed 
resources within the project area.
    In October 2012, the U.S. Forest Service and The Nature Conservancy 
will be initiating the West Monument Creek Collaborative (WMCC) as 
another restoration project within the Pike National Forest. The WMCC 
project area, which includes the land area burned by the Waldo Canyon 
Fire, was targeted for the overlying assessment area prior to the fire. 
Colorado Springs Utilities will again participate in this effort to 
assist with developing priority areas for forest restoration, post fire 
rehabilitation, and evaluate funding opportunities for project 
implementation in priority watersheds. Recognizing the need to partner 
and collaborate with the U.S. Forest Service to advance such projects, 
Colorado Springs Utilities is currently working to formalize its 
partnership with the U.S. Forest Service through a Memorandum of 
Understanding to focus on restoration and wildfire priorities Forest 
Service lands.
    As we move forward to address the current forest health and 
wildfire conditions in Colorado, Colorado Springs Utilities recognizes 
the need for greater action to mitigate wildfire hazards on private 
lands as well as developing partnerships to manage federal lands. With 
the Catamount project as an example, it is of our opinion that those 
that wish to engage and help direct forest management decisions on 
Forest Service lands, the opportunity exists through the National 
Environmental Policy Act and Healthy Forest Restoration Act to work 
collaboratively with the U.S. Forest Service to achieve both community 
and natural resource goals. With this said, it seems that the Healthy 
Forest Management Act of 2012 may be unnecessary as it could lend to 
additional layers of government control and conflicting priorities 
rather than allowing the technical and public process to formulate the 
best forest management alternatives and decisions.
    It is also of interest to Colorado Springs Utilities in effort that 
there U.S. Forest Service and State of Colorado recognizes the 
importance of allowing forest management in priority watersheds to 
sustain water supplies for future generations as well as meeting needs 
as the state's population increases. Understanding the final ruling of 
the Colorado Roadless Rule the rule allows for treat cutting under 
certain circumstances, water providers will be working to request for 
exceptions in Roadless Areas and Upper Tier designations where 
appropriate forest management projects can be completed. In addition to 
working through Roadless Rule constraints, Colorado Springs Utilities 
encourages the ongoing use of prescribed fire as a management tool when 
it can be safely and effectively be implemented. With respect to those 
lives that were lost and the damages suffered from the Lower North Fork 
Fire, Colorado Springs Utilities understands the need for halting 
prescribed fire operations to assess the circumstances and protocols 
that can be improved upon. As an agency willing to continue with its 
prescribed fire program when appropriate, we will be cognizant of the 
lessons learned from the Lower North Fork Fire as well as reassessing 
our own internal protocols to ensure the safety of our program. As we 
look to continued use of prescribe fire on City-owned watershed lands, 
we also encourage greater flexibility within the Colorado Smoke 
Management Program to allow greater use of prescribe fire by the U.S. 
Forest Service on federal lands in Colorado.
    On behalf of Colorado Springs Utilities, I very much appreciate the 
focus on these issues and the opportunity to provide comments in the 
best interest of our national forests and our reliance on these 
critical watersheds. If you have any questions or would like further 
information on Colorado Springs Utilities forest management program, 
please feel free to contact me.
                                 ______
                                 
 Statement of Sallie Clark, Commissioner, Dirstrict 3, and Vice Chair, 
   Board of Commissioners of El Paso County, Colorado Board Member, 
                    National Association of Counties
    Thank you for the opportunity to attend and comment on the recent 
field hearing conducted on August 15, 2012, by U.S. Senator Mark Udall 
regarding forest mitigation efforts, wildfire concerns and healthy 
forest management. This discussion is about more than healthy forests; 
here in Colorado it is a matter of public safety. The lives of our 
citizens are at risk when dead and diseased trees turn the mountainside 
into a tinder box, ready to explode into a firestorm with the next bolt 
of lightning.
    On June 23, 2012, the Waldo Canyon Fire began in El Paso County, 
Colorado, very near to our well-known mountain Pikes Peak, in the Pike 
National Forest. While this fire primarily impacted the commissioner 
district which I represent in western El Paso County, it also took its 
toll and had a profound economic and emotional impact on our entire 
community. Fuelled by dead trees on National Forest lands, the fire 
quickly spread over 18,000 acres. It was the most destructive fire in 
Colorado history. More than 300 homes were lost and two El Paso County 
citizens lost their lives.
    There were many lessons learned from this disaster, but one of the 
most painful is that the public lands which contribute so much to our 
quality of life also pose a substantial threat to public safety. 
Wildfire risks can and must be mitigated. Thousands of acres of dead or 
dying trees adjacent to urban neighborhoods are a recipe for the kind 
of disaster we experienced with the Waldo Canyon fire. Now, as our 
community only begins to recover in the aftermath of the fire, the 
burned and scarred mountainside provides little comfort or mitigation 
to the ensuing flooding we are seeing today. This is currently 
threatening, not only homes, roads and infrastructure, but the lives of 
both adults and children, with at least one elementary school in the 
direct line of flooding destruction for which our county and school 
district must protect through local taxpayer dollars.
    It is our belief that with the right tools in the hands Forest 
Service managers, working collaboratively with state and local 
officials, they can identify and mitigate the dangers posed by 
unhealthy forest lands throughout Colorado. Beetle infestation, 
drought, and poor forest health are undoubtedly contributing factors to 
deadly wildfires. By flagging this threat and outlining prescribed 
remedies and streamlined efforts, this will prevent avoidable fires and 
create defensible boundaries between future wildfires and urban 
neighborhoods.
    The climate of the Western United States' will continue to see 
cycles of ample precipitation and drought. Insects and disease will 
continue to take a toll on our forests but we have a responsibility to 
manage these issues and mitigate the risks. The Waldo Canyon Fire was a 
stark reminder of the need to be proactive in our efforts to protect 
our citizens, property, and resources. We understand that no single 
effort is perfect and we cannot end the threat of destructive 
wildfires. But it is important that we recognize and establish a 
framework for state, local and federal government agencies and the 
private sector, to work together to identify and manage our forests in 
a responsible way and to implement policies that provide the ability to 
get the job done. Appropriate forest mitigation recognizes the need to 
preserve our natural resources while protecting the health, welfare and 
safety of our citizens.
    On behalf of the National Association of Counties (NACo) and the 
Board of Commissioners of El Paso County, Colorado, I urge proactive 
measures to lessen the likelihood of future deadly and destructive 
wildfires like Waldo Canyon. We thank you and each of your subcommittee 
members for your thoughtful consideration and for your ongoing support 
of legislation and policies that will provide state and local agencies 
with the proper tools and resources to ensure the protection of our 
public lands and the safety of our communities.
                                 ______
                                 
    Statement of Shirley Pfankuch, Registered Agent and Manager of 
                  Administration, Slash Solutions, LLC
    I am writing as an owner and overseeing operator of an Air Curtain 
Burner in Red Feather Lakes and our business is called Slash Solutions. 
Last year as our community was faced with more roadblocks to a local 
slash disposal site, I raised $150,000 and engaged 49 property owners 
to open our ACD site in 95 days. Why--because it was imperative we have 
a local and affordable site or owners would likely not continue the 
work.
    Having just survived the High Park Fire, Hewlett Gulch Fire and 
others nearby, this is so important!
                        air curtain destructors
    Slash Solutions sole purpose is to allow the property owners in our 
area the ability to conveniently continue to mitigate their properties 
for Forest Health, RMP Beetle mitigation and most importantly for Fire 
Safety. A large part of the volume we receive comes from Crystal Lakes, 
which is 1630 properties (800 homes), which are in heavily forested 
severe mountain terrain, with 85 miles of dirt roads, and with limited 
access to the area if a large fire should occur. The majority of our 
owners are weekenders--and for them to continue mitigation of their 
properties and have to haul material to the Fort Collins Landfill would 
in all likelihood have brought many efforts to a halt, as most do not 
have the equipment or wherewithal to make large hauls that distance. 
And at one haul per weekend, the progress would have been all but 
derailed! Every day we in mountain communities are at huge risk from 
accidental ignition and lightning strikes. So just because the big 
fires have occurred--it does not mean we are safe!
                          state epa permitting
    As we have been in the midst of the recent new permit process with 
the Colorado Department of Public Health and Environment it has become 
blatantly apparent that there are so many things that are involved in a 
Title 4 Permit that really should not apply to the burners. It is 
imperative that Federal Standards be modified to allow States with 
particular crisis situations to be able to assess and make decisions as 
to what is the biggest benefit. Our units are not huge polluters--yet 
we are pushed into a class with those. I received a 100 page 
application to complete . . . Yes we do create some pollution, but it 
is miniscule in comparison to the fires and the smoke they produce. 
Further we are held to State Regulations that indicate the fire must be 
totally extinguished--which is not possible. And, that there cannot be 
ANY release of after hours smoke. Our operation has reduced that to an 
absolute minimum, but it is imperative that the CDPHE be given the 
``authority'' to weigh individual situations more carefully, as we have 
other measures in place that should allow us to meet the requirement. 
Otherwise, we subject ourselves and CDPHE to regular and frequent 
difficulty!
    The standards for open and prescribed burns also need to be 
amended. Part of why we came into existence is that the local Mutual 
Aid Agreements made it too scary for anyone to want to continue to do 
large pile burns in the winter.
                           road accessibility
    Obviously the recent fires have hit home for us as we are reachable 
from one direction at this point and the secondary routes that were 
available when CR 74E closed are in many places one lane and jeep like 
terrain. While there could be access from a couple of directions over 
USFS land, they have been blocked for years and berms have been put in 
place to keep folks out. It is imperative that the forest service 
consider reopening some secondary routes for our safety.
                        tax subtraction measure
    Also, there is a Tax Subtraction that allows credit for mitigation 
work--but it is set to expire. Further, the amount of the credit is not 
sufficient for most folks! It costs approximately $2,000-5,000 to 
mitigate an acre depending on the forest density. This is not a one or 
two year project and this incentive is not known to enough property 
owners. We have it on our web-site at www.slashsolutionsllc.com
                   funding to assist property owners
    It is imperative that more grant funds and stewardship assistance 
be available. So often people want to do the work, they simply cannot 
afford it. By working in communities we can team together and get more 
done for the dollars spent. This year Crystal Lakes Greenbelt Committee 
was able to mitigate 12.2 acres of Greenbelts. 6.6 acres was done by a 
professional contractor with grant funds, and the remaining amount was 
done with volunteer workers. That was a terrific accomplishment--
however we have 563 acres of greenbelts . . . so at that rate it will 
take us a lifetime to complete. Our grant money was stretched as far as 
possible to get the most out of it and absolutely would not have paid 
for the entire requirement of 16-18 acres without hundreds of hours of 
volunteer labor. And, while our volunteers are awesome--often this 
terrain is not for the everyday volunteer and requires professional 
contractors.
                       insurance and insurability
    I have held Property and Casualty Insurance License in the State of 
Colorado and my concerns here are 1. I hear there is a push to 
``exclude wildfire'' from the standard policy. 2. The settlement 
process--particularly on Personal Property forces a nightmare on the 
victims--as I have talked to several 3. Writing moratoriums. Many 
states do not allow the agonizing ``proof process'' for personal 
property. If you have a set personal property coverage, the check is 
written. People are forced through thousand step processes to determine 
their settlement. Even though they have Replacement cost coverage on 
contents, they are told they will only receive Actual Cash Value--until 
they purchase the replacement. Certainly there is enough trauma in this 
type of situation; they have paid for the coverage for years and often 
decades. They should be able to regroup and use those dollars in ways 
that make sense today to rebuild and refurnish their homes; not be 
restricted to those items. The same standards should apply to dwelling 
replacement. If the owner decides to change their floorplan, increase 
or decrease size, postpone rebuilding, etc., should not matter. They 
should not be punished by reverting to a lower pricing because of that. 
Obviously they have invested and funded the coffers for the companies 
to allow them to operate. Insurance companies can set their rate 
structure, and the loopholes do nothing but add insult to injury! I 
know it costs them horrendous amounts of money to micro-manage these 
claims . . . perhaps it would be better spent benefiting the victims. 
The overall principle of insurance is to rate and make the coverage 
affordable to the masses.
    Thank you, Senator Udall for hosting this hearing and for your 
regular support on these types of issues. It is crucial that we think 
outside the box and get to solutions that are available, affordable and 
efficient.
    I am willing and able to serve wherever I am able.
                                 ______
                                 
Statement of Michael T. Goergen, Jr., Executive Vice President and CEO, 
                     Society of American Foresters
    The Society of American Foresters (SAF), the national scientific 
and educational organization representing the forestry profession, 
would like to thank Chairman Bingaman, Ranking Member Wyden, Senator 
Udall, and other members of the Senate Energy and Natural Resources 
Committee for holding the hearing today on Colorado Wildfires. We 
appreciate the opportunity to testify on this issue as it greatly 
affects our jobs, communities, and safety. We would also like to thank 
Senator Udall for his support and urgency in addressing the issue of 
wildfire. Thank you for your leadership, and know that the SAF and its 
members are able to assist in research, on-the-ground projects, and 
development of strategies to reduce risk of catastrophic wildfire in 
our communities.
    SAF is one of the largest professional societies of foresters in 
the world with more than 12,000 members including CEOs, administrators, 
natural resource managers, scientists, and academics. We believe in 
forest management capable of responding and adapting to the ever-
changing conditions that impact our nation's forests. Across the 
country, there are seriously impaired forests (particularly on the 
federal estate) that will have wide-ranging negative impacts on 
adjacent lands and the entire forest sector. These negative impacts 
include, but are not limited to: additional loss of forest management 
infrastructure, the loss of high-paying jobs in rural communities, 
pressures from invasive species, increased areas of negative impacts 
from insects and disease, overstocked stands, and high risk of 
wildfire.
    We are focusing this testimony on how wildfires have impacted 
Colorado this year, and addressing the larger issue of wildfires 
throughout the west. We will discuss several of the barriers that 
challenge and impede the ability of forestry professionals to use their 
knowledge and expertise to manage forests. Finally, SAF will present 
several recommendations for the Committee regarding how these obstacles 
can be addressed by Congress and stakeholders to help reduce the high 
risk of catastrophic wildfire and improve upon forest resilience.
                        wildfire and its impact
    Impacts of wildfire play an integral role in our communities and 
affect everything from wildlife, to recreation, to our water sources. 
One in five Americans get their drinking water from National Forest 
Systems.\1\ Fire can be beneficial in fire-adapted forest types, but 
increasingly larger, hotter, faster fires are severely damaging 
forested ecosystems. Data from the National Interagency Fire Center 
shows that in the mid-1980s, the annual number of large wildfires 
increased nearly four-fold when compared to the previous decades. Total 
area burned increased 6.5 times, and fire seasons were also found to 
have increased in length.\2\
---------------------------------------------------------------------------
    \1\ USDA Forest Service. 2012. US Forest Service Teams with 
Nonprofit Foundation in Wildfire Recovery Efforts. Available online at 
http://www.fs.fed.us/news/2012/releases/08/nonprofit.shtml; last 
accessed August 21, 2012.
    \2\ A.L.Westerling, H. G. Hidalgo, D. R. Cayan, T. W. Swetnam. 
2006. Warming and Earlier Spring Increases Western U.S. Forest Wildfire 
Activity. Sciencexpress. 1-6. Available online at http://
www.sciencemag.org/content/early/2006/07/06/
science.1128834?explicitversion=true; last accessed August 21, 2012.
---------------------------------------------------------------------------
    As you know, Colorado has already had several record fires that 
have devastated the State. The fire season began early this year with 
the Lower North Fork Fire that burned approximately 4,000 acres near 
the town of Conifer, south of Denver. This summer the High Park Fire, 
north of Fort Collins, caused extensive damage to the forest, and was 
quickly followed by the Waldo Canyon Fire that burned over 350 homes 
outside of Colorado Springs. These three fires alone burned 110,371 
acres. Direct suppression costs for the High Park Fire and the Waldo 
Canyon fire total $54.5 million with the suppression costs of the Lower 
North Fork Fire still unknown. \3\ This is not the end to the cost of 
these fires. The Western Forest Leadership Coalition in its report, The 
True Cost of Wildfire in the Western U.S. states, ``the true costs of 
wildfire are shown to be far greater than the costs usually reported to 
the public, anywhere from two to 30 times the more commonly reported 
suppression costs.'' Costs associated with erosion control, loss of 
property value, loss of business, loss of ecosystem service, and more 
aren't often fully known until years later.\4\
---------------------------------------------------------------------------
    \3\ Denver Post. 2012. Colorado's Largest Wildfires (Burn Area). 
Available online at http://www.denverpost.com/breakingnews/ci_20934186/
colorados-largest-wildfires-burn-area; last accessed August 21, 2012.
    \4\ Western Forestry Leadership Coalition. 2010. The True Cost of 
Wildfire in the Western U.S. Available online at http://
www.wflccenter.org/news_pdf/324_pdf.pdf; last accessed August 21, 2012.
---------------------------------------------------------------------------
    This year, the US Forest Service has approximately $1.7 billion 
dollars in Wildfire Fire funding.\5\ This includes: Suppression, 
Preparedness, Hazardous Fuels, Rehabilitation and Restoration, State 
Fire Assistance, and other fire operations. The Forest Service 
forecasted in March 2012 that the agency could spend upwards of $1.4 
billion in suppression costs (FLAME included) alone.\6\ This would mean 
having to shift much-needed funding from other Forest Service accounts 
to cover the costs of just fire suppression expenses. According to the 
National Interagency Fire Center, the current wildfire acreage burned 
is approximately 1.5 million acres above the 10-year average. If this 
trend continues, the Forest Service will need to move funds from other 
important programs to cover these costs.
---------------------------------------------------------------------------
    \5\ US Congress. 2012. Consolidated Appropriations Act 112th 
Congress. Available online at http://www.gpo.gov/fdsys/pkg/PLAW-
112publ74/pdf/PLAW-112publ74.pdf; last accessed August 21, 2012.
    \6\ USDA Forest Service. 2012. Federal Land Assistance, Management 
and Enhancement (FLAME) Act Suppression Expenditures for Interior and 
Agriculture Agencies: March 2012 Forecasts for 2012. Available online 
at http://www.fs.fed.us/aboutus/budget/requests/
7166984_FY2012%20March%20FLAME%20Report.pdf; last accessed August 21, 
2012.
---------------------------------------------------------------------------
                   barriers to reducing wildfire risk
    There are approximately 65 million acres of the total 193 million 
acres of National Forest System lands that are at high or very high 
risk of catastrophic wildfire.\7\ Many factors have led to the high-
level wildfire risk we are experiencing today. For purposes of this 
testimony, SAF would like to highlight several key barriers that 
greatly affect SAF members. This includes the loss of the timber sector 
and associated reduction in available infrastructure, the bottleneck of 
planning, and an insufficient emphasis on prevention treatments as 
opposed to the focus on suppression after the fire starts.
---------------------------------------------------------------------------
    \7\ USDA Forest Service. 2012. Increasing the Pace of Restoration 
and Job Creation on Our National Forests. Available online at http://
www.treefarmer.com/images/Increase--PaceRestoration-1.pdf; last 
accessed August 22, 2012.
---------------------------------------------------------------------------
Timber-Sector Losses
    Constraints on forests and forest management have led to a steady 
decline in fuels treatments, and subsequently a decline in timber-
related employment. From 2005 to 2010 primary (forestry and logging, 
paper, wood manufacturing, etc.) and secondary (residential 
construction, furniture, etc.) employment have seen a combined 
reduction of 920,507 total jobs. In fact, total US annual timber 
harvests are at their lowest levels since the 1960s. Loss of jobs and 
capacity to manage our forested landscapes has, in part, led to the 
``perfect storm'' conditions that have resulted in the current 40 
million acre Mountain Pine Beetle epidemic and increased fire frequency 
and intensity.
    This lack of production has also led to the closure of more than 
1,000 mills from 2005 to 2009, which decreased overall sawmilling 
capacity by 15 percent, and lowered production levels below 50 percent 
of capacity at the remaining mills.\8\ Less than 2 percent of wood from 
timber harvests come from our National Forest System lands. It's 
imperative to build support for a vibrant market and timber sector in 
order to reduce wildfire risk and create a sustainable supply of wood 
products. This will, in turn, bolster the forest sector and allow for 
the mitigation of insects and diseases, and overall reduction of 
wildfire risk.
---------------------------------------------------------------------------
    \8\ Smith, B.W., and Guldin, R.W. 2012. Forest Sector Reeling 
during Economic Downturn. The Forestry Source January, 2012. Available 
online at http://www.nxtbook.com/nxtbooks/saf/forestrysource--201201/
index.php; last accessed March 2012.
---------------------------------------------------------------------------
Bottleneck of Planning
    Every year the Forest Service spends millions of dollars on 
planning that could otherwise be used on implementing projects and 
monitoring the results. Research has documented that the NEPA process 
(and subsequent judicial review) can significantly delay federal agency 
decisionmaking because of controversy that may occur from its final 
decision. To discourage conflict, federal agencies often overcompensate 
and conduct excessive analysis to make more certain of the success of 
the project under litigation, thus adding additional time and resources 
to the NEPA process. According to a 2008 article for the Journal 
Environmental Practice, The Forest Service, on average takes 2.7 years 
to complete an Environmental Impact Statement (EIS). Within the 
timeframe of the study, the average time to complete an EIS actually 
increased by another 60 days. Finally, it was noted by the authors that 
while NEPA litigation is not a major component of all federal 
litigation, the threat and the potential for adverse judicial decisions 
has had a much greater effect on ``bullet proofing'' the EISs than 
litigation itself.\9\
---------------------------------------------------------------------------
    \9\ deWitt, P. and deWitt, C. (2008) ``Research Article: How Long 
Does It Take to Prepare an Environmental Impact Statement?'' 
Environmental Practice 10(4):164-174.
---------------------------------------------------------------------------
    Earlier this year the Council on Environmental Quality (CEQ) 
published their draft National Environmental Policy Act (NEPA) 
Guidelines. In those comments CEQ acknowledged that there is a current 
``bottleneck'' to the planning process, and recommended that federal 
agencies make Environmental Assessments and EISs concise and no longer 
than necessary, limiting page counts to 15 and 150, respectively. While 
arbitrary limits on page counts may be unnecessary, it is important 
that federal agencies begin making their analyses more concise.
Preventative Measures
    In the current framework, forest treatments and management by the 
Forest Service and other federal agencies are, unfortunately, heavily 
driven by incident response as opposed to application of treatments to 
prevent catastrophic events. Preventative measures are often less 
costly in the long run, and would help stop the need for program 
borrowing when large fire seasons occur. The True Cost of Wildfires in 
the Western U.S. report notes that, in 2008, total expenditures were 
$260 million more than the total wildfire funding for the Forest 
Service. The extra monies had to be transferred from other programs, 
thus impacting other agency work.\10\
---------------------------------------------------------------------------
    \10\ Western Forestry Leadership Coalition. 2010. The True Cost of 
Wildfire in the Western U.S. Available online at http://
www.wflccenter.org/news--pdf/324--pdf.pdf; last accessed August 21, 
2012.
---------------------------------------------------------------------------
    Following the 2011 Wallow Fire in Arizona that burned over 500,000 
acres, a report was completed by several Forest Service employees to 
evaluate the effectiveness of fuels treatments prior to fire. The 
report found that several of the prior treatments to thin forest 
density resulted in the high-severity crown fire dropping from the tree 
crowns to the ground surface. From there firefighters were able to 
contain and extinguish the flames.\11\ Preventative treatments also 
reduce the risk of wildfire, especially in the arid west. Treatments 
both within the Wildland Urban Interface (WUI) and outside the WUI are 
important to improve forest health while reducing risk of wildfire, 
insects and disease, public safety, loss of property, and more. While 
size of treatments and removal of slash and debris from treatment areas 
play an important role in effectiveness, it's important that 
stakeholders, Congress, and the general public understand the benefits 
of preventative treatments.
---------------------------------------------------------------------------
    \11\ US Department of Interior: Indian Affairs. 2011. Wallow Fire 
Fuel Treatment Effectiveness on the Fort Apache Indian Reservation. 
Available online at http://www.bia.gov/cs/groups/xnifc/documents/text/
idc015931.pdf; last accessed August 21, 2012.
---------------------------------------------------------------------------
Recommendations
    SAF has several recommendations that we believe would benefit 
forests and people, reduce the barriers we have discussed, and offer a 
larger solution.

          1) We need a viable forest-products industry that supports a 
        healthy forest sector. A healthy industry and market creates 
        jobs, benefits rural communities, helps pay for forest 
        management improving forest conditions, and improves public 
        safety. We are losing infrastructure and capacity at a rapid 
        pace; it's important that Congress and the public support the 
        remaining industry and encourage investment.
          2) Federal Agencies need to more effectively and efficiently 
        develop and implement project plans. We understand funding is 
        limited, which demonstrates the strong need for efficiency. SAF 
        encourages the Forest Service and other federal agencies to 
        implement CEQ's recommendation to develop concise EAs and EISs. 
        We also ask that Congress and the courts support this 
        direction. SAF also supports the Forest Service's proposed 
        Predecisional Administrative Review rule. We believe it will 
        increase collaboration in the beginning of project scoping, 
        reduce conflict, and speed implementation of treatments.
          3) Landscape-scale restoration efforts need to be increased. 
        The Forest Service, in their 2010 report Increasing the Pace of 
        Restoration, identified the need to increase treatment efforts 
        on NFS lands. SAF supports their efforts and would recommend 
        increasing annual goals for acres treated. There are 
        approximately 60 to 80 million acres in need of restoration; 
        it's important that federal, state, and local entities work 
        together to implement restoration projects.
          4) SAF would like to thank Senator Udall and other members of 
        Congress for their work to reauthorize the Stewardship 
        Contracting Authority, and the Good Neighbor Authority through 
        the Draft Senate 2012 Farm Bill. We would also like to thank 
        Senator Udall and others for their continued support to treat 
        insects and diseases in our National Forests. The provision in 
        the 2012 Draft Senate Farm Bill to amend the Healthy Forest 
        Restoration Act of 2003 to increase treatments on insect and 
        disease-infested forests is very important. We need these tools 
        to address the Mountain Pine Beetle epidemic so that we can 
        restore our forests.

    We sincerely appreciate the opportunity to comment.
                                 ______
                                 
  Statement of Pam Motley, West Range Reclamation, LLC, Hotchkiss, CO
    Thank you for the opportunity to submit written testimony. My name 
is Pam Motley and I represent West Range Reclamation, LLC, a forest 
management company based in Hotchkiss, CO. West Range was founded in 
2001 by Cody and Stephanie Neff out of a deep desire to manage forests 
in a responsible and beneficial way. Over the past 11 years, our firm 
has completed over 300 contracts and 70,000 acres of forest improvement 
projects on public and private land in five western states, helping to 
reduce the risk of catastrophic wildfire, restore native vegetation and 
wildlife habitat, and create a healthy environment to ensure forest 
regeneration in the future.
    Over the past several years, Colorado has witnessed unprecedented 
forest health problems and large catastrophic wildfires. Although 
wildfire has historically played an essential role in the natural 
development of our western ecosystems, today's wildfires are not those 
of the past. We have all seen on television, or witnessed firsthand, 
the recent devastating wildland fires. They are haunting evidence of 
the effects of a century of fire suppression combined with several 
decades of declining forest management activities. Unhealthy forests 
are not only at risk of wildfire, they are much more susceptible to 
disease and insect epidemics. Fuels reduction of these hazardous 
substances is a necessity. Forest management, when done properly, will 
help conserve the western landscape attributes that are so greatly 
valued by all. Most importantly, sound management of these resources 
will help insure that our forests can achieve their full potential and 
will continue to provide for the rural communities and wildlife that 
depend on them.
    West Range employs 55 full time people and subcontracts to over 50 
additional fulltime individuals. Our crews are currently hard at work 
on forest restoration and fuel reduction treatments on numerous private 
ranches and state lands throughout Colorado and southern Wyoming as 
well as stewardship contracts on the White River, Arapahoe-Roosevelt, 
Pike-San Isabel, Grand Mesa-Uncompahgre-Gunnison, and Medicine Bow-
Routt National Forests.
    In 2009, West Range was honored to have been selected through a 
competitive bid process to serve as the contractor on the 10-Year Front 
Range Long Term Stewardship Contract. The purpose of this contract is 
to restore National Forest System lands along the Front Range of 
Colorado to historic conditions in order to prevent catastrophic 
wildfire and improve overall forest health. Through strategic placement 
of treatments, the Forest Service aims to reduce risks of 
uncharacteristically severe wildfire to the ecosystem and communities 
and lower fire-fighting costs. Much of the area is deemed critical for 
protecting communities and municipal watersheds (which supply drinking 
water to over 75 percent of Colorado's population) from the impacts of 
catastrophic fire. The partnership between West Range and the Forest 
Service has pioneered for the nation a new approach to managing our 
national forests in a manner that increases the pace of forest 
restoration and fuels reduction work while creating economic growth. 
Through the contract, West Range treats a minimum of 4,000 priority 
acres annually.
    We believe that Long Term Stewardship Contracting (LTSC) is an 
effective and necessary tool to manage the millions of acres of 
National Forest in this country that require fuels and forest health 
treatment. This work could not be accomplished at the scope and scale 
that is required if we were to continue working project-by-project. Our 
experience on the Front Range LTSC shows us that it can facilitate the 
creation of a `Restoration Economy'--allowing for the utilization of 
more byproduct material and creating economic growth. Utilization of 
large quantities of dead trees, small roundwood and limb, tops and 
brush would not be possible without a ten year commitment of supply. 
Lumber, pallet and pellet mills, as well as future bioenergy 
facilities, require the security of this steady supply of material. By 
utilizing woody biomass material, we can generate additional funds to 
further offset treatment costs, resulting in more work accomplished and 
supporting strong industry in the region. We also reduce waste and air 
pollution by limiting pile burning. The continued stability of the ten-
year project has also allowed West Range to provide well-paying, 
steady, year-round work for our employees. In addition, LTSC establish 
cooperative relationships and open communication between industry, land 
managers and key partners leading to more effective and efficient 
management of our forests and natural resources.
    We feel our experience to date has given us valuable insight into 
ways to improve forest health in a manner that will support communities 
and encourage economic growth. Therefore, we respectfully submit the 
following recommendations to the U.S. Senate Energy and Natural 
Resources Committee.
Stewardship contracts need to include a larger commercial sawlog 
        component
          Dead trees, small roundwood and limbs, tops and brush alone 
        do not contain enough value to effectively offset treatments. 
        To truly make forest treatments and biomass utilization 
        economically viable, costs must be offset with higher value 
        sawlogs costs. This is the power of stewardship contracting, 
        allowing forests to retain timber receipts to accomplish more 
        acres and moving us closer towards the goal of zero cost 
        treatments. As federal budgets continue to decrease, sawlogs 
        will provide much needed funds to accomplish vital work. I 
        commend the Forest Service for their progressive partnerships 
        with private entities like Denver Water and I see that by 
        incorporating higher value timber, the forest products industry 
        can be a similar strong partner. In addition, incorporating 
        sawlogs into LTSC helps support existing sawmills in the region 
        that currently struggle to maintain viability while being 
        supplied only through individual timber sales. Lastly, because 
        LTSC focus on fuels, forest health and restoration treatments, 
        the ability to remove green trees and larger diameter trees 
        will lead to healthier forests, rather that creating even-aged 
        stands.
The Forest Service must guarantee minimum annual volumes of sawtimber 
        and non-sawtimber within Long Term Stewardship Contracts
          Currently, the majority of stewardship contracts only 
        guarantee a minimum amount of acres per year. To encourage 
        utilization and support industry, National Forests should be 
        required to guarantee a minimum and maximum volume per year for 
        sawlog and non-sawtimber material within LTSC. Private industry 
        invests millions to develop infrastructure to utilize woody 
        biomass and inconsistent supply leads to businesses failing, 
        loss of jobs and a loss of trust.
The Forest Service needs to set minimal operating restrictions for 
        priority forest health treatments
          It is understood that forest treatments are ultimately best 
        for wildlife and recreationalists, yet implementation of sound 
        forest management projects are regularly handcuffed for 
        wildlife and recreational interests in unmanageable ways. 
        Examples include: weekend and hours of operation restrictions, 
        deer and elk winter range, and lynx. These restrictions add 
        significant cost to projects and slow progress down.
The appraisal system needs much more flexibility in terms of rates as 
        well as using discretion at the local District level
          The US Forest Service needs to update appraisal procedures to 
        reflect current markets and the deteriorating quality of dead 
        trees. Appraisal policy and procedures should be revised to 
        allow for timber to be sold at Base Rates for a five year 
        emergency treatment period, either Statewide or in designated 
        ``high priority areas''.
Weight limits should be increased on State and Interstate Highways in 
        Colorado to reduce haul costs
          The high cost of transporting low value woody biomass 
        currently limits the ability to utilize material. Increasing 
        weight limits on highways will lead to increased utilization, 
        less pile burning in the woods and fewer logging trucks on the 
        roads.

    In closing we want to extend our gratitude to Senator Udall for his 
continued support of forest management in Colorado. His assistance has 
resulted in additional priority acres being treated this year. We 
believe that all fuels and forest health treatment projects should be 
approached as a partnership and we are privileged to be a part of the 
collaborative, sharing in the vision of enhancing ecological, economic 
and social values.
    Thank you for the opportunity to submit written testimony. West 
Range is committed to supporting sustainable forest management, strong 
communities and job creation. We would be delighted to work with you 
and your staffs to develop efficient, environmentally sound forest 
health strategies.
                                 ______
                                 
Statement of Mark A. Volcheff, Major General, USAF (Ret), 10 Tanker Air 
                     Carrier, Colorado Springs, CO
    Thank you for the opportunity to provide comments for the record to 
the Senate Committee on Energy and Natural Resources conducted in 
Colorado Springs, CO on Aug 15, 2012.
    Recent Colorado wildfires have once again reinforced the importance 
of aerial fire fighting tankers providing fire suppression and 
containment support. Hindsight and lessons learned frmn each fire would 
likely tell us that incremental use of fire fighting resources which 
provides ``just enough'' resources to fight the fire at hand did little 
to avert the large fires we have encountered in 2012 and past years. 
Fires grow out of control most likely from not bringing in overwhelming 
resources, sooner, to contain the fire. The product needed from an 
aerial fire fighting perspective is gallons of suppressant in the right 
place at the right time. The right time is always early. Inadequate 
``gallonage'' in the initial load dramatically decreases effectiveness. 
Hence the (inaccurate) paradigm that, ``airplanes don't put out 
fires.'' While historically true, that can and has been proven wrong by 
the early use of a DC-10 fire fighting aircraft. Deployment of DC-1C 
aircraft successfully containing fires in other fire fighting efforts 
allows us to conclude that bringing in the DC-10 to drop on the 
ridgelines of Waldo Canyon, for example, would have contained that fire 
in its early stages.
    There are initiatives underway to provide US Forest Service with 
organic aircraft platforms. They will have no mission in the fire 
fighting ``offseason'' nor can they be operated as economically as 
commercial options, and some of the specific platforms being 
considered, have no demonstrated capability to fully perform the 
mission.
    Similarly, considerations to increase or rely more on the DoD fleet 
is costly, detracts from their current wartime mission and violates the 
specifics and intent of the Economy Act, 49 USC 40125 and other Public 
Law and policies. Relative to the DoD Modular irborne Fire Fighting 
System aircraft, the assets are typically on a 48-hour initial 
capability call up. The aircraft's proximity to the fire is not the 
limiting factor, nor can it alone accelerate the initial response time. 
Commercially available assets typically respond in 24 hours, or less, 
and faster if on an exclusive use contract. Hence, it is prudent to 
call commercial first in accordance with the Economy Act. Altering the 
Economy Act to more quickly access DoD assets does nothing to improve 
their response time.
    The key to the viability of a commercially available aerial fire 
fighting capability is long term, exclusive use contracts with the US 
Forest Service. In particular, multiple DC-10 ``air bombers'' will 
significantly supplement ANY current aerial fire fighting fixed wing 
re-fleeting plan. The technology is tested, certified, field proven, 
immediately available, and as important, the cheapest option of fixed 
wing platforms given the amount of retardant typically dropped on a 
wild fire. DC-10s, when realistically evaluated, will effectively and 
efficiently do the job and save taxpayer dollars.
    I appreciate the opportunity to submit these comments for the 
record of the proceedings of the field hearing of the Senate Committee 
on Energy and Natural Resources. I am available to provide additional 
information on this subject as we work together to provide the most 
effective and efficient resources for aerial fire fighting support.

Note: Attachments provided with this statement have been retained in 
committee files.
                                 ______
                                 
  Statement of Cindy Domenico, Chair, Boulder County Board of County 
                             Commissioners
    Boulder County expresses our sincere gratitude for your 
coordination of the Senate Energy and Natural Resources Committee Field 
Hearing on Wildfire and Forest Health, which will be held this week in 
Colorado. This forum will provide an important opportunity to discuss 
the forest health issues that persist across the West and the recent 
wildfire issues we have experienced here in Colorado. Your continued 
attention to wildfire and forest health issues at the federal level has 
been instrumental in advancing understanding of the complexities 
involved with these issues and the search for long-term solutions in 
Colorado. Within this context, we would like to take the opportunity to 
provide some recommendations for policies and programs that will 
further support your efforts.
    In 2010 when the Fourmile Canyon Fire burned 6,191 acres and 
destroyed 168 homes in Boulder County, it was recorded as the most 
destructive fire in Colorado history in terms of homes lost. Since that 
time, several fires have taken an even greater toll on Colorado 
residents and our environment. We are very grateful for your role, 
Senator Udall, in requesting the Fourmile Canyon Fire Assessment Study, 
which provided Boulder County with scientific findings from the fire 
that have influenced our efforts around wildfire mitigation. Now, with 
the experience of additional large-scale fires in the wildland urban 
interface this year, we are beginning to understand that many of the 
contributing factors to the Fourmile Canyon Fire similarly contributed 
to the severity of other fires. Weaving together the evidence from 
these fires and identifying best practices that will truly improve the 
outcomes for residents and the environment is the next challenging step 
that we face.
    To that end, Boulder County strongly supports efforts at the 
federal, state and local level that will reduce expanded growth and 
development in the wildland urban interface. Below, we respectfully 
convey our recommendations for policy and funding that will better 
facilitate implementation of such efforts.
    Where development does occur in Boulder County and across Colorado, 
we support strong policies and programs to ensure that residents create 
and maintain adequate defensible space and a safe home ignition zone. 
Local governments in Colorado have the ability to enact many of these 
policies on our own, but we will need the support of the state and 
federal government in order to identify and implement effective 
programs to achieve these goals.
    Further, increased federal investments in reducing wildfire risk 
will also be necessary to lessen the severity and impacts of wildfire 
in the West. Programs such as the Collaborative Forest Landscape 
Restoration Program and other funding designated for public lands 
restoration and fuels reduction work--specifically in the wildland 
urban interface--will improve the overall condition of our forests, 
potentially saving homes, lives and reducing negative impacts to the 
environment (such as water quality). Increased funding for programs 
such as FEMA Pre-Disaster Mitigation grants which allow for wildfire 
mitigation on private lands is also critical in addressing the need for 
mitigation on privately owned lands, which property owners often are 
unable or unwilling to complete on their own.
    In addition, there is a significant need for federal funding to 
support local Community Wildfire Protection Plans (CWPPs). Enormous 
time and effort has gone into developing plans at the local level 
across the country--but with few resources to implement them. As a 
result, CWPPs have failed to reach their full potential and have not 
been integrated into existing programs. Boulder County's CWPP 
identifies numerous recommendations to engage and support private 
homeowners in fuels reduction and to increase wildfire mitigation 
projects across public and private lands. The County has invested 
significantly in implementing those components of the plan that don't 
require partnership with other public land entities, but full 
implementation is stalled due to inadequate support of state and 
federal funding.
    In closing, we greatly appreciate your strong commitment to 
wildfire and forest health issues and your continued support for 
improving the conditions of our western forests. We look forward to 
identifying cost-effective, viable policy and funding solutions 
together that will improve the health of our forests and reduce the 
risks of wildfire in our communities.

                                    <all>


</pre></body></html>
